No. 21 -______________________________________________

IN THE UNITED STATES
SUPREME COURT
_______________________________
JEFFREY G. THOMAS,
Petitioner,
v.
STATE BAR ASS’N. OF CALIFORNIA
Respondent.
________________________________
On Appeal from the Denial of Review on the Merits
In The Supreme Court of the State of California
Case No. S266566
PETITION FOR WRIT OF CERTIORARI
Jeffrey G Thomas, Esq.
201 Wilshire Blvd. Second Floor
Santa Monica, California 90401
Telephone: (310) 650-8326
jgthomas128@gmail.com
Petitioner In Propria Persona

QUESTIONS PRESENTED
I.
Whether discipline of an attorney by a hearing
board of a state bar “court” is void because of
failure to acquire personal jurisdiction of the
attorney at law under the Due Process of the
Laws Clause of Amendment Fourteen of the
Constitution?
II.
Whether discipline of an attorney at law by an
order of the hearing board of the state bar court
was without the subject matter jurisdiction of
the court, because the Bar Association filed and
served its Application on the attorney at law
during a period of abatement of the pending
disciplinary cases?
III.
Whether a bar association’s sanction of
“ineligibility to practice law” is void for
vagueness as applied to an attorney at law in
active practice?

p. i – Petition for the Writ of Certiorari in In re Jeffrey G. Thomas

REASONS FOR GRANTING THE WRIT
In Jones v. Flowers (2006) 547 U.S. 220,
226, this Court held that “when mailed notice of
a tax sale is returned unclaimed, the State must
take additional reasonable steps to attempt to
provide notice to the property owner before
selling his property, if it is practicable to do so.”
Issue No. One is whether the California
state bar association was required to take
further steps to notify Petitioner of his right to
request a hearing on a proceeding of ineligibility
to practice law, when it was clear from the
return receipt of certified mail of the bar
association’s application for ineligibility to the
board of the State Bar Court that the Post Office
failed to deliver it in a timely fashion to
Petitioner and delivered to another person who
accepted it by mistake. The state bar court’s
default order of ineligibility based on this
defective service violated the Petitioner’s
fundamental constitutional right to notice and
opportunity to be heard.
The application of Jones to the initiating
pleadings in this case involving the deprivation
of a license to practice law valuable property is
an issue of great national importance. This
Court denied certiorari in a similar case this
term in Barnette v. H.B.I., L.L.C., case no. 20321, but in Barnette, the Post Office delivered a
p. ii – Petition for the Writ of Certiorari in In re Jeffrey G. Thomas

notice to the defendant to claim the certified
mail at the post office. Petitioner presents a
much stronger case for denial of Due Process of
the Laws according to violation of the Jones
decision here. The state bar court erroneously
assumed delivery, and when presented with a
motion to vacate the default order, it denied it
because of administrative inconvenient to the
state bar association.
Issue No. Two challenges the jurisdiction
of the hearing board of the state bar court to
initiate a “new” disciplinary action for
ineligibility during abatement of the pending
disciplinary actions from which the very similar
allegations in the “new” action are derived.
Petitioner contends that the hearing board and
review board did not acquire subject matter
jurisdiction of the ineligibility action during
abatement for covid19 when the hearing
department of the “court” was effectively closed
to the public. This is an important current
national issue.
The relief requested herein is not only
important to Petitioner’s livelihood, it is
necessary to preserve the integrity of federal law
and the federal court system, to protect the
assets of a registered federal public charity from
being pilfered by its former attorneys at law
conspiring with their opposing attorneys at law
and exploiting a weak and biased regulator of
p. iii – Petition for the Writ of Certiorari in In re Jeffrey G. Thomas

legal ethics in the state. On April 13, 2021, the
federal district court dismissed an action in True
Harmony et al. v. State Dept. of Justice et al.,
case no. 20-cv-00170 JAK-ADS, that Petitioner
brought for his clients the federal public charity,
its donor and its nominee to hold title to its
property.
Petitioner respectfully requests the
consideration of this petition for the writ
together with the petition for the writ of
certiorari in no. 20-1348, True Harmony et al.
v. State Dept. of Justice et al.

p. iv – Petition for the Writ of Certiorari in In re Jeffrey G. Thomas

RULE 29.6 STATEMENT
Pursuant to this Court’s Rule 29.6,
undersigned counsel states that True Harmony
is a wholly owned subsidiary of 1130 South Hope
Street Investment Associates LLC, a limited
liability company organized under, and existing
by, the laws of the state of Delaware. 1130 South
Hope Street Investment Associates LLC does not
have any parent corporation, and no publicly
held corporation owns 10% or more of its
membership interests.
True Harmony is a nonprofit public
benefit corporation and a registered public
charity under the United States Internal
Revenue Code.

p. v – Petition for the Writ of Certiorari in In re Jeffrey G. Thomas

p. vi – Petition for the Writ of Certiorari in In re Jeffrey G. Thomas

TABLE OF CONTENTS
QUESTIONS PRESENTED ………………………... i
REASONS FOR GRANTING THE WRIT ……. ii
RULE 29.6 STATEMENT …………………………… v
TABLES OF CONTENTS AND
AUTHORITIES …………………………………………. vi
OPINIONS BELOW ……………………………………. 1
JURISDICTION ……………………………………….... 1
THE TEXTS OF LAWS INVOLVED ……………… 1
STATEMENT OF FACTS …………………………….. 3
A. THE UNDERLYING DISPUTE BETWEEN
PETITIONER’S CLIENTS AND THEIR
FORMER ATTORNEYS AT LAW .………………… 3
B. THE FRAUDULENT DISCIPLINARY
CHARGES AGAINST PETITIONER BASED ON
FRAUDULENT PRIOR JUDGMENTS AND
THE NEW FEDERAL ACTION .………………….. 7
C. THE STATE BAR COURT’S ENTRY BY
DEFAULT OF THE ORDER OF
INELIGIBILITY ……………………………………….. 10
p. vii – Petition for the Writ of Certiorari in In re Jeffrey G. Thomas

DISCUSSION …………………………………………… 19
A. LACK OF PERSONAL JURISDICTION ….. 19
B. LACK OF SUBJECT MATTER
JURISDICTION ……………………………………….. 27
C. THE VOID AND VAGUE ORDER OF
“INELIGIBILITY TO PRACTICE LAW”.………. 31
CONCLUSION …………………………………………. 37

p. viii – Petition for the Writ of Certiorari in In re Jeffrey G.
Thomas

TABLE OF AUTHORITIES
STATUTES
26 U.S.C. §501(c)(3) ……………………………………. 9
28 U.S.C. §1257(a) ………………………………………. 1
Amendment One, U.S. Constitution ……….. 9, 35
Amendment Eleven, U.S. Constitution ………… 6
Amendment Fourteen, U.S. Constitution
…………….…………………. 1, 9, 17, 19, 20, 22, 26, 31
Cal. Bus. & Prof. Code §6001.1 …………………… 32
Cal. Bus. & Prof. Code §6007(c)(2) …………… 2, 32
Cal. Bus. & Prof. Code §6068(c) …..………………. 8
Cal. Bus. & Prof. Code §6103 ……………………….. 7
Cal. Code Civ. Proc. §473 ………………………….. 8, 9
Cal. Gov’t. Code §12580 et seq. …………………….. 6
Cal. Corp. Code §5913 ………………………………….. 5
Rule 5.21, State Bar Court ………………………….. 20
Rule 5.25, State Bar Court ………………………….. 20
p. ix – Petition for the Writ of Certiorari in In re Jeffrey G. Thomas

Rule 5.225 – 5.227, State Bar Court ……………. 20
DECISIONS
Barnette v. H.B.I. L.L.C. (Neb. 2020)
941 N.W. 2d 158, cert. den. U.S. S.Ct.
no. 20-321, February 22, 2021 ……………….. 24, 25
Bendix Autolite Corp. v. Midwesco
Enterprises Inc. (1988) 486 U.S. 888 ………….. 34
County of Sullivan v. Vaughan (2009),
25 Misc. 3d 960, 885 N.Y.S. 2d 575 …………….. 23
Craig v. Harney (1947) 331 U. S. 367 ……………. 30
Crum v. Vincent (8th Cir. 2007)
493 F. 3d 988 ……………………………………………. 24
Daimler AG v. Baumann (2014)
571 U.S. 117 ………………………………………………. 20
Echavarria v. Pitts (5th Cir. 2011)
641 F. 3d 92 ………………………………………………. 23
Ex Parte Young (1908) 209 U.S. 123 …………….. 6
Federated Dept. Stores v. Moitie (1981)
452 U.S. 394 …………………………………………….. 30
p. x – Petition for the Writ of Certiorari in In re Jeffrey G. Thomas

Gibson v. Berryhill (1973) 411 U.S. 564 ………… 26
Hicks v. Feoick (1988) 485 U.S. 624 ……………. 34
Hill v. Colorado (2000) 530 U.S. 703 ……… 31, 32
In re Ruffalo (1968) 390 U.S. 544 ………………… 32
Jones v. Flowers (2006)
547 U.S. 220 ………………………………….. 22 - 25, 29
Knupfler v. Lindblade (In re Dyer)
(9th Cir. 2003) 322 F. 3d 1178 ……………………… 34
Kolender v. Lawson (1983) 461 U.S. 352
…………………………………………………………… 31, 32
Linn Farms & Timber Ltd. P’ship v. Union
Pac. R.R. Co. (8th Cir. 2011) 661 F. 3d 354 …….. 24
Lucky Dogs LLC v. City of Santa Rosa
(N.D.Cal. 2012) 913 F. Supp. 2d 853 …………… 24
Luessenhop v. Clinton County
(2nd Cir. 2006) 466 F. 3d 259 …………………….. 24
Mathews v. Eldridge (1976)
424 U.S. 535 ……………………………… 21, 27, 29, 36
McHenry v. Renne (9th Cir. 1996)
84 F. 3d 1172 ……………………………………………… 13
p. xi – Petition for the Writ of Certiorari in In re Jeffrey G. Thomas

Mullane v. Central Hanover Bank
(1950) 339 U.S. 306 ………………………………. 19, 21
Pennoyer v. Neff (1877) 95 U.S. 714 …………….. 19
Peralta v. Medical Heights Group, Inc.
(1988) 485 U.S. 80 …………………………… 17, 21, 26
Piper v. New Hampshire (1985)
470 U.S. 274 ……………………………………………… 35
Plemons v. Gale (4th Cir. 2005)
396 F. 3d 569 ……………………………………………. 22
Richmond Newspapers Inc. v. Virginia
(1980) 448 U.S. 555 …………………………………… 30
Smith v. Goguen (1974) 415 U.S. 566 …………… 32
United National Insurance Company v.
R & D Latex Corp. (9th Cir. 2001)
242 F. 3d 1102 …………………………………………… 34
United States v. Levesque (1st Cir. 2007)
546 F. 3d 78 ……………………………………………… 34
Willowbrook v. Olech (2000)
528 U.S. 562 ………………………………………… 27, 35
Yi Tu v. Nat’l. Transp. Safety Bd.
(9th Cir. 2006) 470 F. 3d 941 ..……………………… 24
p. xii – Petition for the Writ of Certiorari in In re Jeffrey G. Thomas

OPINIONS BELOW
The state supreme court denied review of
the decision of the Review Department of the
State Bar Court without opinion on February 10,
2021 in S266566 (Appx. #1). 2021 Cal. Lexis
1140. The decision of the Review Department
denying the appeal from the Hearing
Department of the State Bar Court is dated
December 4, 2020. (Appx. #2). The Hearing
Department denied Petitioner’s motion to vacate
the order of ineligibility on October 1, 2020.
(Appx. #3). The Hearing Department of the
State Bar Court entered an order of ineligibility
to practice law on August 19, 2020. (Appx. #4).
JURISDICTION
The state supreme court denied review of
the Review Department’s decision on February
10, 2021. This petition is “efiled” in this court on
April 15, 2021. Petitioner invokes the Court’s
jurisdiction under 28 U.S.C. 1257(a).
THE TEXTS OF LAWS INVOLVED
Amendment Fourteen, Section One of the
United States Constitution:
“All persons born or naturalized in the United
States, and subject to the jurisdiction thereof,
are citizens of the United States and of the state

p. 1 – Petition for the Writ of Certiorari in In re Jeffrey G. Thomas

wherein they reside. No state shall make or
enforce any law which shall abridge the
privileges or immunities of citizens of the
United States; nor shall any state deprive any
person of life, liberty, or property, without due
process of law; nor deny to any person within
its jurisdiction the equal protection of the laws.”
Cal. Bus. & Prof. Code Section 6007(c)(2):
“(c)(2) The State Bar Court may order the
involuntary inactive enrollment of an attorney
if it finds, based on all the available evidence,
including affidavits:
(A) The attorney has caused or is causing
substantial harm to the attorney's clients or the
public.
(B) There is a reasonable probability that
the chief trial counsel will prevail on the merits
of the underlying disciplinary matter, and that
the attorney will be disbarred.
(3) In the case of an enrollment under
paragraph (2), the underlying matter shall
proceed on an expedited basis.”

p. 2 – Petition for the Writ of Certiorari in In re Jeffrey G. Thomas

STATEMENT OF FACTS
A.

THE UNDERLYING DISPUTE BETWEEN
PETITIONER’S CLIENTS AND THEIR
FORMER ATTORNEYS AT LAW

The background of the actions between
Petitioner’s clients and their opponents in the
state courts that caused the money sanctions,
and caused the defendants to complain to the
disciplinary authority of nonpayment, is
reviewed in two prior petitions for the writ of
certiorari in this Court in Thomas v. Zelon, #181113, and in Thomas v. Solomon, #19-537. The
background is also reviewed in the Second
Amended Complaint in True Harmony et al. v.
State Dept. of Justice et al., no. 20-cv-00170, U.
S. Dist. Ct. Cent. Dist. of Cal. dismissed on April
13, 2021.
The basic facts of the dispute in the
background are summarized. The defendants in
the True Harmony action (excluding the State
Dept. of Justice and Xavier Becerra) are former
attorneys at law for True Harmony who
conspired with opposing counselors at law in a
quiet title action to persuade the state court to
approve a fraudulent settlement agreement, and
to enforce it. The conspiracy succeeded and
caused the state court to execute clerk’s deeds to
the property to the entities owned by the former
attorneys at law and co-conspirators, Mssrs.

p. 3 – Petition for the Writ of Certiorari in In re Jeffrey G. Thomas

Perry, Solomon and Gibson, the defendants in
the True Harmony action (herein sometimes
referred to as “defendants”), based on an
arbitrator’s decision that was never intended to
be binding on True Harmony in the court.
Despite that True Harmony’s former
attorneys at law conspired with, and accepted a
financial stake in the conspiracy and assumed a
continuing managerial role in the entity that
received title to the plaintiff charity’s property,
the former attorneys at law failed to obtain the
written consent of the charity to the conflict of
interest as required by the state rules of
professional conduct. The defendants defrauded
the state courts on several occasions, in
persuading the courts to transfer the title to
them, including failure to obtain written consent
to the conflict of interest in True Harmony’s
attorney at law Mr. Perry participating as
manager of the entity that would own the
property transferred under the fake settlement
agreement, involuntary waiver by True
Harmony of attorney client privilege to allow
Mr. Perry to testify against the charity, passing
off a fake “knock-off” copy of the fraudulent
settlement agreement as authorizing binding
arbitration of disputes in several actions
including bankruptcy court, testifying that the
state attorney general’s had consented to the
transfer of ownership of the property of the

p. 4 – Petition for the Writ of Certiorari in In re Jeffrey G. Thomas

charity to defendants, knowingly violating the
cease and desist order, and in other ways.
In April of 2011, the state’s attorney
general wrote a letter to the defendants Mssrs.
Perry, Solomon, their entities, and the buyer of
the property from them in a sale to a related
party and one of the defendants in the True
Harmony action, BIMHF, LLC. The letter
prohibited the sale because the state’s attorney
general did not approve the transfer, and it
violated Cal. Corp. Code §5913. The defendants
proceeded to sell the property anyway, knowing
that it violated the law.
The defendants continuously throughout
all civil actions in the courts obstructed all
discovery in the courts, and violated the
discovery statutes and abused the anti-slapp law
to frustrate Petitioner’s efforts to obtain the
evidence. It was not until 2017 that Petitioner
obtained the documentary evidence that the
True Harmony defendants knowingly violated
the state attorney general’s order not to sell the
property. And it is one prong of the plaintiffs’
cause of action for denial of constitutional right
of access to courts in the federal action
dismissed on April 13, 2021, a second prong
being the defenses of res judicata and collateral
estoppel that the defendants fraudulently
asserted and the state courts passively accepted,
which defenses are preempted by the automatic

p. 5 – Petition for the Writ of Certiorari in In re Jeffrey G. Thomas

stay under federal bankruptcy law and the
federal common law of tax exempt
organizations.
The cease and desist letter of 2011 was the
final act of cooperation and communication that
the state’s attorney general provided to True
Harmony. The state’s attorney general cut off all
communication to Petitioner and True Harmony
thereafter. It failed to provide a real reason for
declining to become a plaintiff with True
Harmony in the action BC546574 and the appeal
therefrom. In the federal action, the state’s
attorney general moved to dismiss the True
Harmony federal action with the argument of
sovereignty under Amendment Eleven of the
U.S. Constitution. See Ex Parte Young (1908)
209 U.S. 123.
Petitioner asserts the charity’s standing to
enforce the cease and desist order under the
Uniform Supervision of Charitable Trustees Act
(“Uniform Act”), Cal. Gov’t. Code §12580 et seq.
in the federal action, and included the state’s
attorney general in the Second Amended
Complaint as an involuntary plaintiff.
Petitioner also pleaded the state’s attorney
general as a defendant in the True Harmony
action. Petitioner pleaded a fourth cause of
action to vindicate taxpayers’ rights to require
the state’s attorney general to acknowledge True

p. 6 – Petition for the Writ of Certiorari in In re Jeffrey G. Thomas

Harmony’s standing to sue the defendants under
the Uniform Act in the public interest, and a
fifth cause of action arising under the federal
common law of parens patriae and the federal
common law of tax exempt organizations to
recover the charity’s assets.
B.
THE FRAUDULENT DISCIPLINARY
CHARGES AGAINST PETITIONER BASED ON
FRAUDULENT PRIOR JUDGMENTS AND
THE NEW FEDERAL ACTION
The State Bar Association (“Bar South”)
filed a Notice of Disciplinary Charges (“NODC”)
against Petitioner in no. 15-O-14870 in 2015,
based on money sanctions that the court of
appeals awarded to defendants against
Petitioner in that year. The Bar’s NODC in no.
15-O-14870 alleged failure to obey a court order
under Cal. Bus. & Prof. Code §6103. See the
petition in Thomas v. Zelon (#18-1113). The
State Bar Court (“Bar Court South”) abated the
NODC until 2019.
In January of 2020, in no. 20-O-00029
the Bar South filed another NODC, with new
charges. It alleged misconduct of failure to
report sanctions and criminal threat, and failure
to pay money sanctions awarded by the courts in
2016, 2017 and 2018. See the petition in
Thomas v. Solomon, no. 19-537. It also alleged
maintaining of an unjust action under Cal. Bus.

p. 7 – Petition for the Writ of Certiorari in In re Jeffrey G. Thomas

& Prof. Code §6068(c) with regard to all of the
actions and appeals involving judicial sanctions
of Petitioner.
In the new federal action in the Central
District of California, styled True Harmony et
al., v. State Dept. of Justice of California et al.,
see A, supra, Petitioner alleged that all of the
money sanctions awarded against him were
granted pursuant to erroneous and fraudulent
motions. Furthermore that the defendants
threatened to cause the bar association to
suspend his license to practice law because of
nonpayment of sanctions, to deprive his clients
and himself of the constitutional right to access
to courts. And the order of ineligibility which
the state bar association obtained in violation of
Petitioner’s Due Process of the Laws has now
halted the federal action and had the result that
the allegations concerning sanctions in the
federal action was intended to prevent.
The first appellate sanctions in B254143
were grossly erroneous because Petitioner filed
Mr. Haiem’s motion within the six month time
period of Cal. Code Civ. Proc. §473 plus the five
additional days for response to the notice of
dismissal of the cross-complaint mailed by the
clerk, because the clerk made notice by mail of
the decision on the court’s own motion. The
superior court ordered sanctions in BC466413
after the unsuccessful appeal; and they were

p. 8 – Petition for the Writ of Certiorari in In re Jeffrey G. Thomas

erroneous because they were based on re-notice
of the motion which argued for res judicata of
the appellate sanctions, which was not the same
motion served on Petitioner with a demand to
withdraw the motion under §473 regarding the
cross-complaint.
The superior court’s sanctions in
BC546574 were based on denial of its
jurisdiction of Petitioner’s motion for
reconsideration, which sought reconsideration
of the court’s ruling sustaining the demurrer to
the state law (second amended) complaint.
They were erroneous because at least some of
the judgments based on the ruling were entered
after Petitioner filed the motion for
reconsideration in the superior court, and the
demurrers denied Due Process of the Laws
under Amendment Fourteen of the U.S.
Constitution (“Due Process of the Laws”).
Jurisdiction of the motion for reconsideration
was accepted by the sole judicial precedent on
the issue which, coincidentally, was a decision of
the state supreme court. The money sanctions
awarded by the court of appeals in the appeal
from BC546574, in B287017, denied jurisdiction
of the appeal and ignored Petitioner’s arguments
that the clients had been denied Due Process of
the Laws in the denial of the appeal, and the
motion for reconsideration, and violated
Petitioner’s exercise of constitutional rights of
free speech and petitioning under Amendment

p. 9 – Petition for the Writ of Certiorari in In re Jeffrey G. Thomas

One of the U.S. Constitution (“Free Speech and
Petitioning”) for the recovery of charitable assets
for a registered public charity under Section
501(c)(3) of the Internal Revenue Code.
The money sanctions that each state court
awarded were also punitive in effect, akin to
contempt. United National Insurance
Company v. R & D Latex Corp. (9th Cir. 2001)
242 F. 3d 1102. And the suspension deprives
Petitioner him of his license to practice his
occupation and earn a living. See, eg., United
States v. Levesque (1st Cir. 2007) 546 F. 3d 78,
which entitled him to a jury trial and proof of
guilt beyond a reasonable doubt, under Hicks v.
Feoick (1988) 485 U.S. 624 and Knupfler v.
Lindblade (In re Dyer) (9th Cir. 2003) 322 F. 3d
1178.
The State Bar Court is referred to
hereinafter as Bar Court South or by the initials
SBCS; the State Bar Association is referred to
hereinafter as Bar South.
C.
THE STATE BAR COURT’S ENTRY BY
DEFAULT OF THE ORDER OF INELIGIBILITY
AND ITS FAILURE TO VACATE THE ORDER
The NODC in no. 20-O-00029 made no
allegations against Petitioner concerning the
new federal action filed against Defendants in
True Harmony et al. v. State Dept. of Justice et

p. 10 – Petition for the Writ of Certiorari in In re Jeffrey G. Thomas

al. in 2020, because Petitioner filed it a few days
thereafter. In March of 2020 the state supreme
court ordered the closure of state courts
statewide until May, and seems to have briefly
extended the closure to June. The Hearing
Department of Bar Court South ordered the
cases for the NODCs unabated on or about June
30, 2020; the Review Department ordered
unabatement on July 10, 2020.
At least up until the time that the Hearing
and Review Departments of the Bar Court South
ordered unabatement and for some period of
time thereafter, the Bar South and Bar Court
South (collectively “state entities”) institutions
were closed to the public and if they did any
work, did not communicate in writing, or by
telephone or by email to respondents or the
public. There is one combined main telephone
number for the state entities in Los Angeles,
which was unanswered. There was no public
directory of individual telephone numbers or
email contacts for the state entities (if
answered), and no facility for voicemail in this
main number. Petitioner had previously
objected in writing to service of pleadings
and/or notices by email.
The Bar South staff attorneys at law
handling the NODC cases did not make any
effort to communicate by telephone to Petitioner
from the time before the covid19 shutdown in

p. 11 – Petition for the Writ of Certiorari in In re Jeffrey G. Thomas

February of 2020 until about September 1, when
in response to Petitioner’s voicemail to the Bar
South staff attorney at law about the order of
ineligibility, he called back to Petitioner.
The order of ineligibility is dated August
19, 2020, granted pursuant to Bar South’s
Application therefore. Appx. #4, 22 - 54. Bar
South filed the Application and received the no.
SBC-20-TE-30411 for the Application on June
25. According to the proof of service of the
employee attached thereto, on or about June 25
it attempted to serve the pleading, the
Application, consisting of about forty pages of
paper and a USB (universal serial bus) flash
drive containing thousands of pages of
documents by certified mail on Petitioner at 201
Wilshire Blvd. Second Floor, Santa Monica.
Petitioner did not receive the certified mail
from Bar South in his mailbox at 201 Wilshire
Blvd. until on or about July 17. He received the
Application which was a paper copy of a
pleading including a list of exhibits by title, and
it was mailed with a USB flash drive loosely
referred to therein as “evidence.” There was no
table of contents or index in the Application for
the exhibits in the USB flash drive.
The mass of thousands of pages of
documents on the USB flash drive lacked
pagination (except page numbers for individual

p. 12 – Petition for the Writ of Certiorari in In re Jeffrey G. Thomas

exhibits). The flash drive lacked a table of
contents or index. The documents thereon were
printed “double-sided” on front and back of each
“page,” and the “separator pages” within each
exhibit seemed to indistinguishably merge with
the “separator pages” between exhibits. The
collection of exhibits and the Application as a
whole is a “hot mess” prolix pleading. See
McHenry v. Renne (9th Cir. 1996) 84 F. 3d 1172.
And since Petitioner objected many times to
email service of pleadings, the Bar Court South
should have simply ignored the exhibits on the
USB flash drive because documents on USB
flash drives are “electronic.”
The Application cited evidence in two
sworn declarations of defendant attorneys at law
Rosario Perry and Norman Solomon supposedly
contained on the USB flash drive, quoting these
defendants that the True Harmony federal
action caused harassment, oppression and
discrimination. Appx. #A4, at A45 - 46. Mssrs.
Perry and Solomon requested Bar South and
SBCS to order the suspension of the Petitioner
to cause the federal court to halt the federal
action. Petitioner could not find these
declarations in the prolix USB flash drive, and
consequently did not specifically refute the facts
therein in his motion to vacate the order of
ineligibility.

p. 13 – Petition for the Writ of Certiorari in In re Jeffrey G. Thomas

The Application was written with a
boilerplate warning to Petitioner to file a verified
pleading requesting a hearing within ten days of
the date of the Application. Appx. #3, at A10,
Appx. #4, A24 - 25. The Application stated Bar
South’s intent to waive a hearing for Petitioner if
Petitioner did not request it in a specific format.
When Petitioner read the Application
pleading on or about July 17 as he received it,
the deadline in the boilerplate for requesting a
hearing had long since passed. See Appx. #4, at
24 -25. An email from Bar South (or perhaps it
was from Bar Court South, whatever) popped up
in his email inbox at about this time, which
mysteriously vanished from view just as fast as it
“popped up.” Petitioner understood the
information in the email before it disappeared to
include a “zoom” conference setup (he had never
“zoomed” before) for the near future, an issue of
ineligibility (based on the prolix Application)
and a date for this issue that he believed was
July 30.
In response to the late received
Application, on July 23, 2020 he filed a simple
request for hearing, entitling it a “Notice of
Objections to Schedule for Hearing on July 30
etc.” (“Notice etc.”) Appx. #3, at A10, Appx. #4,
at A26. He attached to the Notice etc. a
declaration stating under oath that he had a
legal right to a prior adversarial hearing on

p. 14 – Petition for the Writ of Certiorari in In re Jeffrey G. Thomas

suspension with appropriate advance notice and
the opportunity to present evidence and
witnesses. He attached exhibits, including the
extension of the covid19 shutdown in Los
Angeles courts through August, and a copy of
the Application pleading explaining that he
received it on July 17 and it was the only notice
regarding “ineligibility” from the state entities.
In its order of ineligibility, Appx. #4 at
A22 – A54, the State Bar Court South (“SBCS”)
dismissed the Notice etc. as an inadequate
request of a hearing, because it interpreted the
boilerplate language in the Application
describing the format of the request as expressio
unius est exclusio alterius (I added the Latin
phrase for emphasis). SBCS apparently had the
return receipt in its file, failed to review it and to
understand that the “green card” receipt was
delivered to Room 102 of the office building, and
not the appropriate receptionist. SBCS
erroneously assumed that the Application was
delivered to Petitioner. Appx. #A4, at ___.
Appx. #3 at A14.
The order of ineligibility relies on a letter
that it states that SBCS mailed to Petitioner on
July 1 with notice of a conference on ineligibility.
Appx. #3, at A14, Appx. #4, A25 – 7. But SBCS
failed to review the Notice etc. and comprehend
the sworn statement of Petitioner therein that he
received no other notice concerning the

p. 15 – Petition for the Writ of Certiorari in In re Jeffrey G. Thomas

ineligibility from anyone up until July 23, 2020,
other than the pleading in the Application which
he attached to his declaration. Neither Bar
South nor SBCS has made this letter a part of
the record and Petitioner has never seen it.
The order of ineligibility states that the
SBCS deemed the matter of ineligibility
submitted on July 20, 2020, and SBCS mailed
the order of submission to Petitioner. Appx.
#A4, at A24 – 25; see Appx. #3 at A10. SBCS
wrote that Petitioner could have moved the
SBCS to submit a late response to the
Application to counter the late receipt. Appx.
#3, at A14, Appx. #4, A25 – 27. But this order
dated on or about July 20, 2020 that the SBCS
assumed that Petitioner received was a one or
two page document in a format similar to a
calendar notice that set a date for a conference
for trial setting that stated that all issues were
reserved for trial, which indicated that the issue
of “ineligibility” was reserved for trial, and not
that it was finally submitted “past the point of
no return” that SBCS ascribed to it. This order
dated on or about July 20, 2020 was not made a
part of the record by Bar South or SBCS. Ibid.
Petitioner filed a motion to vacate the
order of ineligibility, on or about September 9,
2020, based on inadequate notice and
opportunity to be heard and lack of subject
matter jurisdiction. Appx. #3, at A7 – A21. Bar

p. 16 – Petition for the Writ of Certiorari in In re Jeffrey G. Thomas

South included the returned return receipt for
the certified mail in its opposition to the motion,
which was Petitioner’s first opportunity to read
the “green card” (if it was contained in the
prolix documents of the USB flash drive, he
couldn’t find it in the “hot mess”). This return
receipt of the certified mail noted that the Post
Office had delivered the certified mail
containing the Application in room 102 of the
201 Wilshire building in a private tenant’s office
who is not authorized to receive his mail. A
person whose name Petitioner does not
recognize signed for acceptance.
But the SBCS knew or should have known
that the Application was not delivered already
from reading the Notice etc., incorporated in the
motion. Incredibly despite being presented with
the overwhelming evidence of nondelivery to the
contrary in the Notice etc. and the declaration
attached to the motion to vacate, SBCS
arbitrarily and irrationally ruled that
administrative inconvenience to Bar South and
lack of prejudice to Petitioner required it to deny
the motion to vacate. Appx. #A3, at ___.
And after discussing the Notice etc. in its
order of ineligibility dated August 19, 2020, the
SBCS struck the Notice etc. from the record, on
or about September 14, 2020. In support of his
appeal to the Review Department and the state
supreme court, Petitioner expressly denied

p. 17 – Petition for the Writ of Certiorari in In re Jeffrey G. Thomas

under oath in his declarations the Post Office’s
delivery to him of the Application in room 102 of
the building and denied under oath acceptance
by his agent. Compare Appx. #3, at A7 – A21
with Appx. #4, A22 - A54. In support of the
appeal to the Review Department, Petitioner
cited this Court’s decision in Peralta v. Medical
Heights Group, Inc. (1988) 485 U.S. 80 which
holds that these orders that violate Due Process
of the Laws are void and must be vacated - on
direct or collateral attack.
The Review Department upheld the Bar
Court South’s denial of the motion as not an
abuse of discretion, because it was
administratively convenient for it to ignore the
record presented by Petitioner thereon. Appx.
#2, A2 – A6. Petitioner filed a petition for
review to the state supreme court on January 12,
2021. The state supreme court denied the
petition without opinion on February 10, 2021.
Petitioner has requested the Bar South
many times to investigate the various violations
of disciplinary rules and the State Bar Act by the
attorney at law defendants in the True Harmony
action. The Bar South refuses to investigate the
pattern of frauds on the court committed by the
defendants, despite that the defendants’ frauds
on the court caused the fraudulent judgments
against Petitioner’s clients, which caused the
state courts’ granting to defendants the

p. 18 – Petition for the Writ of Certiorari in In re Jeffrey G. Thomas

fraudulent sanctions of Petitioner for filing
pleadings opposing the fraudulent judgments,
for which he has now been declared ineligible to
practice law and the client’s action is dismissed.
In his motion to vacate the order of
ineligibility to the Hearing Department and
again to the Review Department, Petitioner
contested the subject matter jurisdiction of the
Bar Court South to decide an Application for
ineligibility filed and served during abatement of
the underlying NODC cases. The Hearing
Department and Review Department ignored
this argument altogether. Appx. #2, at A2 – A6,
Appx. #3, at A17 – A18. And on July 23, 2020,
the same day that he filed the Notice etc.,
Petitioner filed a motion to continue abatement
in the light of continued closure of the Los
Angeles courts because of covid19 through
August, and the filing of the Second Amended
Complaint in True Harmony et al. v. State Dept.
of Justice et al., supra. That SBCS arbitrarily
and irrationally rejected.
The Frequently Asked Questions feature
posted to the Bar Court South’s internet website
clearly stated that during abatement for covid19,
the Bar Court South could not schedule the filing
of pleadings or argument during abatement and
after unabatement, without first holding a status
conference during unabatement. According to
State Bar Court’s own FAQ, SBCS could solely

p. 19 – Petition for the Writ of Certiorari in In re Jeffrey G. Thomas

notice a status conference during abatement and
solely place a status conference on its calendar
during abatement for the period after
unabatement.1
DISCUSSION
A. LACK OF PERSONAL JURISDICTION
The notice and opportunity to be heard in
the initiating documents for a civil action which
is required by the Due Process of the Laws
Clause is afforded by service in the best
practicable manner to provide actual notice of
the civil action to the defendant, and the
opportunity to defend against it. Mullane v.
Central Hanover Bank (1950) 339 U.S. 306. In
the context of a defendant whose name and
address are known to the plaintiff, the best
practicable manner of service is the delivery of
the summons and complaint on the defendant in
his or her actual presence, a/k/a “personal
service of process.”
The state bar court internet webpage touts a
search function that the respondents can type
their name and search for the docket of
disciplinary cases, but Petitioner searched for
his name as directed and could not find his
docket. In December a colleague let him know
that he found Petitioner’s docket by typing his
bar number in the “search bar.”
1

p. 20 – Petition for the Writ of Certiorari in In re Jeffrey G. Thomas

The decision of this Court in Daimler AG
v. Baumann (2014) 571 U.S. 117 established that
the contacts of a defendant within the
jurisdiction must be sufficient to establish that
the defendant is generally “at home,” for
personal service of process. An attorney at law
is “at home” in the jurisdiction in which he or
she is licensed, and the Due Process of the Laws
clause permits service of a summons and a
complaint on an agent of a defendant, within the
state. See Pennoyer v. Neff (1877) 95 U.S. 714.
This manner of service on an agent of the
defendant is known as “substituted personal
service.”
Rule 5.21 of the Bar Court South states
that disciplinary actions begin with a NODC
filed with the State Bar Court and served on the
respondent member of the bar association. Rule
5.25 requires delivery of a NODC by certified
mail, return receipt requested. Rules 5.225
through 5.227 of the entity deem the Application
for Involuntary Inactive Enrollment to be
initiation of a disciplinary action that must be
served in the manner of SBC Rule 5.25.
The dispute here arises because the service
was attempted on the wrong agent in the wrong
office of the same 201 Wilshire building as that
“occupied” by Petitioner’s “virtual office,” for
which the mail is delivered to the building

p. 21 – Petition for the Writ of Certiorari in In re Jeffrey G. Thomas

management on the second floor, and the
Hearing Department and Review Department of
Bar Court South condoned Bar South’s failure to
accept the real facts. Appx. #2, A2 – A6; Appx.
#3, A14 – A15; Appx. #4, A24 – 25, A29 – A30.
Petitioner submitted all of the evidence of
mistaken delivery, and the Bar South’s defective
return of service on the wrong person in the
wrong premises in sworn declarations at every
step of the proceedings below. Bar Court South
plainly erred in its assumption of delivery to
Petitioner because of the notation of delivery to
another office in the same building on the return
receipt. The Hearing Department and the
Review Department of SBCS and the state
supreme court all dodged the issue of their legal
duty to vacate the void order of ineligibility
under Peralta, supra. Appx. #2, A2 – A6; Appx.
#3, A14 – A15; Appx. #4, A24 – 25, A29 – A30.
When the state defines initiating pleadings
for a civil action, Mullane, supra, requires that
the pleadings be served in the manner that
guarantees best practicable personal notice in
the circumstances. The State Bar Court Rules
prescribe a method of substituted personal
service on the respondent attorney at law’s office
that seem reasonable – when in fact the
pleadings are delivered to the attorney at laws
office and accepted by an authorized person.
But Bar South failed in its attempts to do the

p. 22 – Petition for the Writ of Certiorari in In re Jeffrey G. Thomas

service in the manner prescribed by its own
rules.
In Jones v. Flowers (2006) 547 U.S. 220
this Court held that the Due Process of the Laws
Clause required the state of Arkansas to make
further efforts to provide actual notice to the
person deprived of property by official action,
because the post office returned to the state an
unclaimed return receipt (so-called “green
card”) for certified mail. The state sent certified
mail with notice of the date, time and place of
sale by the State of the owner of record’s
property to pay property taxes, to the last known
address. The Post Office delivered a notice to
come to the Post Office to claim the certified
letter. This Court held that when certified mail
warning of an imminent tax sale is returned as
unclaimed, an American government must make
further reasonable attempts to provide notice
prior to “forcing a citizen to satisfy his debt by
forfeiting his property.” 547 U.S. at 234.
As the Fourth Federal Circuit held in
Plemons v. Gale (4th Cir. 2005), 396 F. 3d 569,
576 (before Jones), “when prompt return of an
initial mailing makes clear that the original
effort at notice has failed, the party charged
with notice must make reasonable efforts to
learn the correct address before constructive
notice will be deemed sufficient.” See also
Echavarria v. Pitts (5th Cir. 2011) 641 F. 3d 92,

p. 23 – Petition for the Writ of Certiorari in In re Jeffrey G. Thomas

94–95 (after Jones) (“When the government
has knowledge that notice was not effected, it
cannot ‘simply ignore’ that information.”);
County of Sullivan v. Vaughan (2009), 25 Misc.
3d 960, 965, 885 N.Y.S. 2d 575 (additional
service required when party serving pleading is
aware that mail was returned).
Here, the state entities only needed to take
a few minutes to read the information on the
completed return receipt (“green card”) to know
that the acceptor from the Post Office did not
sign it at the “Second Floor” in the 201 building
by the Petitioner, his “official” address in the socalled state bar profile. The state entities had
reason to know from reading the Notice etc. that
Petitioner had not received the letter dated July
1, 2020. They had reason to know from the
Notice etc. that Petitioner would not understand
that the Bar Court South’s “order of submission”
waived his right to a hearing on ineligibility,
because of the difference in the July 20 and July
30 dates.
Bar South only needed to send the
certified mail a second time for Petitioner to
receive the certified mail, or even simply to
make telephone calls or emails to Petitioner to
verify receipt. Bar South did no followup
investigation, and violated the Jones precepts.
The burden of sending the certified mail a
second time to the right address or of calling or

p. 24 – Petition for the Writ of Certiorari in In re Jeffrey G. Thomas

emailing Petitioner to verify it was slight, and
the burden was on Bar South to do these
minimal acts. However, apparently Bar South
intentionally failed to investigate and take
further steps because it intentionally assisted the
Defendants Mssrs. Perry and Solomon to drop
Petitioner’s representation of True Harmony
and to stop the recently dismissed federal action
dead in its tracks.
The regional federal circuit courts of
appeals have applied Jones beyond its facts of a
tax sale of a residence. Linn Farms & Timber
Ltd. P’ship v. Union Pac. R.R. Co. (8th Cir. 2011)
661 F.3d 354, 358 (Arkansas statute);
Luessenhop v. Clinton County (2nd Cir. 2006),
466 F. 3d 259, 271–72. Federal courts have
applied Jones to the deprivation of state
conferred licenses as property, which is what
this petition for the writ is asking this Court to
do. Crum v. Vincent (8th Cir. 2007) 493 F. 3d
988, 992–93 (physician’s medical license); Yi
Tu v. Nat’l. Transp. Safety Bd. (9th Cir. 2006)
470 F. 3d 941, 945–46 (pilot’s license).
Compare Lucky Dogs LLC v. City of Santa Rosa
(N.D.Cal. 2012) 913 F. Supp. 2d 853.
This Court recently denied a petition for
writ of certiorari to the supreme court of
Nebraska in Barnette v. H.B.I. L.L.C. 941 N.W.
2d 158, no. 20-321, February 22, 2021. In
Barnette the Nebraska court denied relief to the

p. 25 – Petition for the Writ of Certiorari in In re Jeffrey G. Thomas

owner of a vacant parcel of land, and limited
Jones to its facts. But in Barnette the Nebraska
supreme court relied on the notice that the post
office delivered to the recipient to pick up the
mail from the local post office. Petitioner has a
stronger case for the application of Jones,
because Petitioner never received this notice
from the post office.
In the recently dismissed True Harmony
action (U.S.D.Ct. Cent. Dist. Cal. no. 20-cv00170) Petitioner is challenging the various
actions taken by defendants Perry, Solomon and
Gibson, all licensed members of the California
state bar association to deny his and his clients’
federal civil rights of constitutional rights of
access to the courts, including their pursuit of
their ethics complaint in their own private
interest to suspend Petitioner’s law license, and
to halt the True Harmony federal action. They
have succeeded in doing so as of April 13, 2021.
And they have succeeded in doing so because the
Bar South has conspired with defendants to
achieve the goals of their conspiracy.
In the interest of its administrative
convenience, the SBCS has facilitated and aided
and abetted the goals of the defendants’ obvious
conspiracy with Bar South. Administrative
convenience is not and can never be a sufficient
excuse for waiving the rules of Due Process of
the Laws for serving process on a defendant in a

p. 26 – Petition for the Writ of Certiorari in In re Jeffrey G. Thomas

civil action. As the order of ineligibility is based
solely on the erroneous assumptions that service
was proper according to SBCS’s own rules and
the Due Process of the Laws can be waived for
administrative convenience it must be vacated
and reversed. And the other assumptions of the
order of ineligibility as to actual notice of the
Application and the alleged duty of Petitioner to
make a motion to extend the time for
responding to the Application are all faulty,
because they are refuted by the facts presented
to the Hearing Department and the Review
Department of Bar Court South in sworn
declarations. And as a matter of law, actual
notice cannot be based on the constructive
notice in a letter from the fact of the mailing of
the letter.
Under Peralta, supra, Petitioner made out
a prima facie case of failure of the attempted
service on his office because of a defective return
of service known to Bar South and to Bar Court
South at both levels and the state supreme court.
Bar Court South seems to be a kind of chimera
agency with both administrative and judicial
functions, and with administrative and
investigative functions and physical facilities
combined or shared with Bar South. Which
raises an inference of bias and inadequate Due
Process of the Laws. Gibson v. Berryhill (1973)
411 U.S. 564. Including a denial of Equal
Protection of the Laws, Class of One, to deny to

p. 27 – Petition for the Writ of Certiorari in In re Jeffrey G. Thomas

Petitioner the adverse hearing that the Due
Process of the Laws guarantees to him under
Mathews v. Eldridge, supra. Willowbrook v.
Olech (2000) 528 U.S. 562.
Reversal of the SBCS’s order of ineligibility
is mandatory under Jones and Peralta.
B. LACK OF SUBJECT MATTER
JURISDICTION
As to subject matter jurisdiction, the
underlying disciplinary cases 15-O-14870 and
20-O-00029 were abated until July 10 by order
of the Review Department. And there was no
one answering the telephone at the office, no
voicemail function of the Bar South or Bar Court
South’s collocated offices, or for that matter no
email function of Bar Court South’s personnel
(and Petitioner had repeatedly objected to
service of documents and notices by email
anyway as permitted by Cal. Code of Civil
Procedure). Truly there was no “open court”
with functioning personnel communicating with
Petitioner associated with the court during the
period of abatement.
The Frequently Asked Questions (“FAQ”)
and responses thereto of the Bar Court South
published on its internet webpage confirms that
there was no court open to the public (including
respondents) during abatement because of

p. 28 – Petition for the Writ of Certiorari in In re Jeffrey G. Thomas

covid19. This is because the responses to the
FAQ clearly state that during abatement of
disciplinary cases, the Bar Court South could not
require respondents to file pleadings on the
merits, or attend any hearing on the merits. The
Bar Court South characterized its authority in its
responses posted with the FAQ on its internet
website as limited to only sending (or “serving”)
letters notifying the respondents of status
conferences outside the period of abatement of
the “closed court.”
Frequently asked question no. 2 on the
internet website of this tribunal states that:
“Question 2: If the opposing party
submits a pleading or other document for
filing during the abatement period, do I
have to respond within the timeframe set
forth in the applicable Rules of
Procedure? Answer 2: No, unless the
court orders otherwise. If a party submits
a pleading during the abatement period,
the opposing party does not need to
respond to the pleading until the
abatement is terminated, unless the court
modifies its abatement order in that case
and orders a party to file a response to
the pleading. Once the abatement is
terminated, the opposing party will have
the same number of days to file a
response to the pleading as the party

p. 29 – Petition for the Writ of Certiorari in In re Jeffrey G. Thomas

would have had if the proceeding had not
been abated, unless otherwise ordered by
the court.” Ibid.
But the Bar South filed the Application on
June 25, 2020, and the Bar Court South
arrogated to itself unlawful jurisdiction of a
“new case” filed and attempted to be served
during a period of emergency in which the Bar
Court South was shut down by order of its own
supreme court and prohibited from transacting
its legal business. Appx. #3, at A9 – A10; Appx.
#4, at A24 – A25. The Bar Court South, by its
own rules cited herein as interpreted by FAQ on
its internet website, lacked authority to schedule
any future hearings or decisions on disciplinary
cases before, at the very earliest, unabatement of
the disciplinary cases by its own order dated
July 10. And the Bar Court South knew that on
June 25 when it privately filed the Application
during closure that abatement for covid19 meant
that it could not accept any pleadings or notices
relating to discipline, or scheduling a decision or
hearing on discipline, under its own rules. It
lacked subject matter jurisdiction of the
Application.
Furthermore, even if the Bar South had
appropriately according to Jones and Peralta
obtained personal jurisdiction of Petitioner
through substituted personal service of the
Application, the Application requested the

p. 30 – Petition for the Writ of Certiorari in In re Jeffrey G. Thomas

Petitioner’s filed written verified response
during the shutdown period. The Application
directed Petitioner to file in Bar Court South and
to serve on Bar South his verified request for a
hearing on ineligibility within ten days of June
25, which was July 5, five days before
unabatement under the Review Department’s
order. The chimeric Bar Court South entity
improperly attempted to manufacture subject
matter jurisdiction by inartfully allowing the
filing of the Application during the abatement
period. Cf. Federated Dept. Stores v. Moitie
(1981) 452 U.S. 394.
The decisions of this Court hold that
courts lack jurisdiction of secret actions
undisclosed to the public, in which proceedings
are secret. In Craig v. Harney (1947) 331 U. S.
367, 374 the court stated that “[a] trial is a
public event. What transpires in the court room
is public property … There is no special
perquisite of the judiciary which enables it, as
distinguished from other institutions of
democratic government, to suppress, edit or
censor events which transpire in proceedings
before it.” Compare Richmond Newspapers
Inc. v. Virginia (1980) 448 U.S. 555, 580 n. 17.
Manifestly when a proceeding in an
American court is closed to the public, it is
because the court withholds all notice, publicly
available or privately legitimately served,

p. 31 – Petition for the Writ of Certiorari in In re Jeffrey G. Thomas

identifying the proceeding and the respondents
targeted and the time and place of the future
proceeding from the world, as here, The Bar
Court South entity was not “open” on July 30 for
the purpose of subject matter jurisdiction,
because the notice that Bar South illegitimately
filed and served, or assisted the Bar Court South
in filing and attempting to serve on Petitioner,
was erroneous as a matter of law. Therefore
denying Appellant his common law right of
access to an open forum and arbitrarily,
capriciously and irrationally manufacturing
jurisdiction.
C.
THE VAGUE AND VOID ORDER OF
“INELIGIBILITY TO PRACTICE LAW”
A policy or statute is so vague as to violate
due process when it either (1) fails to inform
ordinary people what conduct is prohibited and
does not provide fair warning, or (2) allows for
arbitrary and discriminatory enforcement.
Kolender v. Lawson (1983) 461 U.S. 352, 357. A
vague law does not provide fair warning of a
crime if it “fails to provide people of ordinary
intelligence a reasonable opportunity to
understand what conduct it prohibits” or
”authorizes or even encourages arbitrary and
discriminatory enforcement.” Hill v. Colorado
(2000) 530 U.S. 703, 732.

p. 32 – Petition for the Writ of Certiorari in In re Jeffrey G. Thomas

The sanctions that Petitioner failed to pay
are money sanctions owed to the defendants
(except for $8500 that the court of appeals
ordered paid to itself), and the order of
ineligibility furthers the defendants’ Perry’s,
Solomon’s and Gibson’s private interest. Appx.
#4, A44 – A47. Bar South’s involvement in the
ineligibility proceeding furthers the private
interests of the defendants in the True Harmony
action, and its interest in avoiding involvement
as a party defendant therein.
The vagueness standards from the
criminal cases such as Hill and Kolender and
Smith v. Goguen (1974) 415 U.S. 566 apply here,
because the discipline of attorneys at law is
quasi-criminal. In re Ruffalo (1968) 390 U.S.
544.
The Bar Court South’s jurisdiction is
restricted to issues involving the public interest,
including the public administration of justice.
Cal. Bus. & Prof. Code Section 6001.1. Cal. Bus.
& Prof. Code §6007(c)(2) applies a penalty of
“ineligibility to practice law” to attorneys at law
such as Petitioner that the hearing board of the
Bar Court South decides have caused serious
harm to the public. Petitioner has not caused
serious harm to the public or the administration
of justice; he has furthered the public interest in
attempting the recovery of public assets
belonging to a federal charity.

p. 33 – Petition for the Writ of Certiorari in In re Jeffrey G. Thomas

The average person or even attorney at
law does not comprehend “ineligibility to
practice law” as an order of suspension from the
practice of the law concerning a dispute in which
the attorney at law has previously appeared for
clients because he is licensed to practice law in
the state. The average person’s understanding
of the concept of “eligibility to practice law” is
that it comprehends the basic credentials and
qualifications to apply for and pass a bar
examination administered by Bar South, which
all attorneys licensed by Bar South and licensed
to appear for clients in state courts have
achieved.
Defendants Gibson and Perry harassed
the Petitioner with communications demanding
that he declare himself as suspended because he
is “ineligible to practice law.” Defendant
BIMHF, LLC’s attorneys at law filed the order in
the federal district court and suggested ex parte
to the judge subject to recusal in 20-1348 that it
may affect Petitioner’s ability to practice law.
Defendants Gibson and Perry recently contacted
the same judge ex parte in March of 2021 and
requested an ex parte order of disqualification
of Petitioner. These attorneys at law are sworn
to uphold the Constitution of the United States
as an oath of office, and they don’t know what is
“ineligibility to practice law” in this state.
Because it is unconstitutionally vague.

p. 34 – Petition for the Writ of Certiorari in In re Jeffrey G. Thomas

The order of ineligibility affects
Petitioner’s constitutional right to travel to earn
an income and a livelihood. Compare Bendix
Autolite Corp. v. Midwesco Enterprises Inc.
(1988) 486 U.S. 888 with Piper v. New
Hampshire (1985) 470 U.S. 274. Under
applicable regional circuit precedent, he is
entitled to a trial by jury and proof of guilt
beyond a reasonable doubt for suspension due
to nonpayment of sanctions. Knupfler v.
Lindblade (In re Dyer) (9th Cir. 2003) 322 F. 3d
1178; see Hicks v. Feoick (1988) 485 U.S. 624;
see also United National Insurance Company
v. R & D Latex Corp. (9th Cir. 2001) 242 F. 3d
1102; United States v. Levesque (1st Cir. 2007)
546 F. 3d 78
The Bar South has intentionally engaged
in selective and discriminatory enforcement
against Petitioner. Petitioner has requested the
Bar South many times to investigate the various
violations of disciplinary rules and the State Bar
Act by the attorney at law defendants in the True
Harmony action. Despite that the defendants’
Perry’s and Solomon’s frauds on the court
caused the fraudulent judgments, and that the
state courts’ sanctioned the Petitioner in
subsequent actions for attacking their res
judicata effect thereof, and this caused the
ineligibility.

p. 35 – Petition for the Writ of Certiorari in In re Jeffrey G. Thomas

SBCS ridiculed Petitioner’s motion to
vacate the order of ineligibility and his motion
for continued abatement because of covid19 and
the pending True Harmony action. Appx. #3,
passim. The functions and facilities and the
budgets of the state entities seem to be
conjoined. SBCS rejected the Petitioner’s
request to review the order of ineligibility in the
recent “zoom conference call trial” held by SBCS
on February 24, 25 and 26, 2020, despite that
SBCS previously wrote that ineligibility was an
issue for the trial. Therefore the issue presented
by this petition is not moot.
CONCLUSION
This Supreme Court must uphold the
principles of Due Process of the Laws in Jones
and Peralta, grant the writ, vacate and reverse
the order of the state supreme court, and
remand.
Dated: April 15, 2021 JEFFREY G. THOMAS
/s/ Jeffrey G. Thomas
Petitioner

p. 36 – Petition for the Writ of Certiorari in In re Jeffrey G. Thomas

TABLE OF CONTENTS OF APPENDIX TO
PETITION FOR THE WRIT OF CERTIORARI
__________________________________________
JEFFREY G. THOMAS v. STATE BAR ASS’N.
OF CALIFORNIA
No. 21 - ____________

NO.
1
2

3

4

DATE

TITLE

PAGE#

Denial of State Court Review
2.10.2021
Review Department Denial
of Motion to Vacate Order
12.4.2020

A1

Hearing Department Denial
of Motion to Vacate Order
10.1.2020

A7

Hearing Department Order
of Ineligibility 8.19.2020

A22

p. i – Appendix to Petition for the Writ of Certiorari in Thomas v.
Solomon et al.

A2

Appendix A1 – Denial of State Court Review
Reported 2021 Cal. Lexis 1140.
IN RE JEFFREY G. THOMAS, Petitioner
Prior History: State Bar Court.
In re Jeffrey G. Thomas No. S266566
Opinion
Petition for review denied.

p. 1 ( A1), Appendix – Petition for the Writ of Certiorari in In re
Jeffrey G. Thomas

Appendix A2 – Review Department’s Denial of
Motion to Vacate

FILED
DEC - 4 2020

STATE BAR COURT
CLERK'S OFFICE
LOS ANGELES

STATE BAR COURT OF CALIFORNIA
REVIEW DEPARTMENT

En Banc

In the Matter of
State Bar No. 83076,
JEFFREY GRAY THOMAS,
)
p. 2 ( A2), Appendix – Petition for the Writ of Certiorari in In re
Jeffrey G. Thomas

)
)
)
)
------------)
SBC-20-TE-30411
ORDER
On October 19, 2020, respondent Jeffrey Gray
Thomas filed an Appeal to the Review Department
regarding the Hearing Department's denial of his
Request or Motion to Vacate Involuntary Inactive
Enrollment, which we deemed a petition for
interlocutory review of the Hearing Department's
October 1, 2020 order. (Rules Proc. of State Bar, rule
5.150.) On November 13, 2020, we ordered the
Office of Chief Trial Counsel of the State Bar
(OCTC) to respond to respondent's request.
On November 24, 2020, OCTC filed a response in
opposition. OCTC filed an appendix with its
opposition which contained the notice of hearing and
the hearing judge's submission order to show
indicating that respondent never filed a response to
the request to enroll him involuntary inactive or
attend the hearing on the matter.
Having considered the pleadings, we find that the
hearing judge properly found substantial evidence to
p. 3 ( A2), Appendix – Petition for the Writ of Certiorari in In re
Jeffrey G. Thomas

support respondent's involuntary inactive enrollment.
As such, respondent's request for review is denied
because he failed to show an abuse of discretion or
error of law by the hearing judge. (Rules Proc. of
State Bar, rule 5.150(K).)

PURCELL
Presiding Judge

-2-

CERTIFICATE OF SERVICE

(Rules Proc. of State Bar, rules 5.27(B) & 5.27.1;
Code Civ. Proc., § 1013a, subd. (4).)

I, the undersigned, am a Court Specialist of the State
Bar Court. I am over the age of eighteen and not a
party to the within proceeding. Pursuant to standard
court practice, on December 4, 2020, I deposited a
true copy of the following document(s):

ORDER FILED DECEMBER 4, 2020
p. 4 ( A2), Appendix – Petition for the Writ of Certiorari in In re
Jeffrey G. Thomas

in a sealed envelope for collection and mailing on
that date as follows, or I transmitted a true copy of
the above document(s) on that date as follows:

by first-class mail, with postage thereon fully
prepaid, through the United States Postal Service at
Los Angeles, California, addressed as follows:

JEFFREY GRAY THOMAS
201 WILSHIRE BLVD. FL. 2
SANTA MONICA, CA 90401-1219

by electronic service to JEFFREY ORAY THOMAS
at the following electronic service address as defined
in rule 5.4(29) and as provided in rule 5.26.1 of the
Rules of Procedure of the State Bar:

jgthomas128@gmail.com; usoldit@hotmail.com

by electronic service to ANDREW 1. VASICEK at
the following electronic service address as defined in
rule 5.4(29) and as provided in rule 5.26.1 of the
Rules of Procedure of the State Bar:
p. 5 ( A2), Appendix – Petition for the Writ of Certiorari in In re
Jeffrey G. Thomas

Andrew.Vasicek@calbar.ca.gov
by interoffice mail through a facility regularly
maintained by the State Bar of California addressed
as follows:

Andrew J. Vasicek, Office of Chief Trial Counsel,
Los Angeles

I declare, under penalty of perjury under the laws of
the State of California, that the information above is
true and correct. Executed in Los Angeles,
California, on December 4, 2020.

Mel Zavala
Court Specialist
State Bar Court, Review Department

p. 6 ( A2), Appendix – Petition for the Writ of Certiorari in In re
Jeffrey G. Thomas

Appendix A3 – Hearing Department’s Denial of
Motion to Vacate Order

FILED fog
OCT 01, 2020

STATE BAR COURT
CLERK's OFFlCE
LOS ANGELES

STATE BAR COURT OF CALIFORNIA
HEARING DEPARTMENT - LOS ANGELES

In the Matter of
State Bar No. 83076.
JEFFREY GRAY THOMAS,
)
)
)
)
p. 7 (A3), Appendix – Petition for the Writ of Certiorari in In re
Jeffrey G. Thomas

)
)
)
)
----------------)

Case No. SBC-20-TE-30411-CV
ORDER REGARDING: (1) MOTION
TO VACATE; (2) MOTION TO
COMPEL; (3) REQUEST FOR
JUDICIAL NOTICE; AND
(4) MOTION FOR
RECONSIDERATION

On August 19, 2020, this court issued a decision and
order in the above-listed matter. On August 26,
2020, respondent Jeffrey Gray Thomas (Respondent)
filed two separate motions. The first is entitled
"Respondent's Formal Request for Order Vacating
Involuntary Inactive Enrollment and for Order
Setting the Issue for Trial" (Motion to Vacate). The
second is entitled "Respondent's Request for Order
Compelling Discovery Responses from State Bar
p. 8 (A3), Appendix – Petition for the Writ of Certiorari in In re
Jeffrey G. Thomas

Prosecutors Andrew Vasicek, Melanie Lawrence,
Anthony Garcia, Mia R. Ellis and Kelly McNamara"
(Motion to Compel).

On September 9, 2020, Respondent filed two
additional pleadings. One is entitled
"Request for Judicial Notice with Request to Vacate
or Reconsider or Review Order of Involuntary
Inactive Enrollment" (Request for Judicial Notice).
The other is entitled "Memorandum of Points and
Authorities for Request to Reconsider or Review
Involuntary Inactive Enrollment" (Motion for
Reconsideration).

On September 16, 2020, the Office of Chief Trial
Counsel of the State Bar of California (OCTC) filed
an opposition to the aforementioned motions.

Brief Procedural History

On June 26, 2020, OCTC filed the underlying
Application for Involuntary Inactive Enrollment
(Application). That same day, a copy of the
Application was properly served on Respondent by
certified mail, return receipt requested, at his official
State Bar record address. OCTC waived a hearing on
p. 9 (A3), Appendix – Petition for the Writ of Certiorari in In re
Jeffrey G. Thomas

the Application unless Respondent filed a response
contesting the Application. Pursuant to rules 5.225
and 5.227 of the Rules of Procedure of the State Bar
of California this was an expedited proceeding and
Respondent had 10 days after service to file a
verified response.

On July 1, 2020, this court filed and properly served
a notice of assignment and notice of hearing (Notice
of Hearing) informing the parties that a hearing was
set for July 30, 2020. This notice was served on
Respondent by mail at his official State Bar attorney
address. A copy of this notice was also emailed to
Respondent that same day.
Respondent did not file a timely verified response to
the Application. Because OCTC explicitly waived a
hearing, and Respondent implicitly waived a hearing
(he did not file a verified answer, and did not request
a hearing as required by Rule 5.227), this matter was
submitted for decision on July 20, 2020. A copy of
the order of submission was served on Respondent in
the same fashion as the Notice of Hearing, i.e., by
mail and email. In this order, the court informed the
parties that all scheduled hearing dates were vacated.
On July 23, 2020, Respondent filed a one-paragraph
"objection" asserting that he objects to the "'virtual'
hearing that was scheduled without notice to
[Respondent] and/or opportunity to submit his
criticisms, that is apparently scheduled for July 30,
p. 10 (A3), Appendix – Petition for the Writ of Certiorari in In re
Jeffrey G. Thomas

2020." Attached to the objection was a convoluted
___________________________________________

1 Unless otherwise indicated, all subsequent
references to "rule(s)" are to this source.
-2–
declaration from Respondent in which he made
numerous allegations, including, among other things,
that OCTC's attorneys "undoubtedly are negligently
hired and negligently trained;" this court did not
provide Respondent with an explanation for the "socalled hearing;" OCTC was engaging in elder abuse
against Respondent; the multiple "so-called"
sanctions awarded against Respondent in the
underlying civil court matters are void or invalid; and
Los Angeles County politicians are corrupt and lying
to the population about the risk of Covid-19
infection.

Although Respondent asserted that he did not receive
the Application or Notice of Hearing until on or
about July 17, 2020, he did not present any evidence
to substantiate his claims that the documents were
improperly and untimely served on him - such as the
postage marks on the envelopes. This court found
Respondent's improper service claims lacking in
credibility.
p. 11 (A3), Appendix – Petition for the Writ of Certiorari in In re
Jeffrey G. Thomas

Respondent neither filed a verified response to the
Application nor requested a hearing either prior to, or
after, the filing of his objection. This matter
remained under submission and the court issued the
Decision and Order Granting the Application for
involuntary Inactive Enrollment on August 19, 2020.
In the decision, this court found it had been
established by clear and convincing evidence that (l)
Respondent has and is continuing to cause harm to
the public; and (2) there is a reasonable probability
that OCTC will prevail at trial and that Respondent
will be disbarred. (Bus. & Prof. Code, section 6007,
subd. (c)(2)(B).). Thereafter, the present motions
were filed.
As an initial matter, the present motions are
procedurally and substantively flawed.
Moreover, they contain nearly incomprehensible
claims. Finally, they fail to establish good cause for
the additional reasons specified under each motion
below.

-3–

Motion to Vacate
Although this motion is titled as a Motion to Vacate,
Respondent begins this motion by advocating for a
mental health examination of OCTC attorneys
Andrew Vasicek, Melanie Lawrence, Anthony
p. 12 (A3), Appendix – Petition for the Writ of Certiorari in In re
Jeffrey G. Thomas

Garcia, Mia Ellis, and Kelly McNarmara (the OCTC
attorneys.)

Specifically, Respondent seeks a court order
directing the OCTC attorneys to submit to a self
administered internet screening quiz for "the
following mental health conditions which may be
affecting their competence and judgment to practice
law: bipolar disorder (types I and II), paranoia,
schizophrenia, seasonal affect disorder, dysthymia,
depression, manic depression, obsessive compulsive
disorder ... , generalized anxiety disorder ... ,
borderline personality disorder, Asperger's syndrome,
bulimia, and sexual, narcotic, alcohol, gambling
disorders and substance abuse."

Respondent's request, however, is unsupported by
meaningful argument, and he has presented no
reasonable justification or authority upon which this
court could grant such a request. Indeed, this request
suggests Respondent's unwarranted consumption of
judicial resources seemingly to delay an orderly
resolution of the disciplinary charges against him.

Respondent's request for a court order requiring
OCTC attorneys to submit to mental health
examinations, and his claims in support of that
request, are demeaning, unprofessional, and baseless.
p. 13 (A3), Appendix – Petition for the Writ of Certiorari in In re
Jeffrey G. Thomas

Consequently, this request is DENIED.

Based on Respondent's conclusions that the OCTC
attorneys "were exercising impaired judgment" and
that Respondent did not receive proper notice of the
present matter, he asserts that the August 19, 2020
order of involuntary inactive enrollment must be
vacated. As noted above, this court previously
considered similar arguments from Respondent
regarding inadequate service in his July 23, 2020
objection and found them to be unsubstantiated.
-4–
Nonetheless, Respondent again argues improper
notice. And once again, Respondent failed to provide
any evidence, such as the mailing envelope,
demonstrating that the Application was untimely
received. In its opposition, OCTC attached a copy of
the certified return receipt of the Application. This
return receipt states that the Application was
delivered to Respondent's official State Bar address
on June 29, 2020 - rather than July 17, 2020, as
asserted by Respondent.2
Moreover, Respondent failed to articulate any
prejudice resulting from the alleged violation of due
process. (In the Matter of Johnson (Review Dept.
1995) 3 Cal. State Bar Ct. Rptr. 233, 241 [a party
must establish actual prejudice when asserting
violation of due process].) Respondent never stated
nor evidenced any intent to participate in this
p. 14 (A3), Appendix – Petition for the Writ of Certiorari in In re
Jeffrey G. Thomas

expedited proceeding. Even If he received notice as
late as July 17, 2020, he could have taken action to
participate in the proceeding prior to this court
submitting the case for decision on July 20, 2020.
However, Respondent never moved for an extension
of time to file a verified response based upon the
alleged late notice. Respondent never filed a verified
response to the Application as required by Rule 5.227
- not even belatedly. Respondent never requested a
hearing as required by Rule 5.227. Instead,
Respondent flippantly referred to the hearing as the
"so-called hearing", and, indeed, objected to the
hearing because it was set to proceed through virtual
technology rather than in person in the courtroom.3
No good cause having been shown, the Motion to
Vacate is DENIED.
__________________________________________

2 The certified mail article number on the return
receipt matches the article number listed on the
Application's proof of service.

3 In his July 23, 2020 objection, Respondent
acknowledged receiving a flash drive with the
Application. OCTC's proof of service indicates that
the exhibits, which were over 6,000 pages, were
provided to Respondent on a flash drive. Rule
5.226(B) states that the application must be served on
p. 15 (A3), Appendix – Petition for the Writ of Certiorari in In re
Jeffrey G. Thomas

the attorney under rule 5.25. However, neither of
these rules explicitly requires that the supporting
documents to the application be provided in paper
form.
-5–
Motion to Compel
Respondent begins the Motion to Compel the same
way he began the Motion to Vacate, with a request
for a court order requiring various OCTC attorneys to
submit to mental health screening. For the same
reasons noted above, this request is DENIED.

The discovery rules that permit a motion to compel
do not apply to the present proceeding. (Rule
5.233(B).) However, even if they did, a motion to
compel discovery must be brought within 15 days
after the date the discovery response was due and it
must include a declaration showing that the party
made a reasonable good faith attempt to informally
resolve the issue prior to filing the motion to compel.
(Rule 5.69.) Here, Respondent did not include a
declaration and there is no evidence that he even
made a discovery request from OCTC.
No good cause having been shown, the Motion to
Compel is DENIED.

Request for Judicial Notice
p. 16 (A3), Appendix – Petition for the Writ of Certiorari in In re
Jeffrey G. Thomas

In connection to his Motion to Vacate, Respondent
requests that the court take judicial notice of the
Second Amended Complaint in True Harmony, et al.
v. The Department of Justice of the State of
California, et al. Rule 5.104(H)(2)(e) states that the
court may take judicial notice of non-certified court
records that have been copied from a public access
website operated by a court or government agency.
Rule 5.104(H)(2)(e) requires that the party offering
such records must provide a declaration stating the
date upon which the documents were copied and
certifying that the documents are an accurate copy of
the court records obtained from the website.
Respondent did not include a declaration in
compliance with rule 5.104(H)(2)(e).
Accordingly, the Request for Judicial Notice is
DENIED, no good cause having been shown.
-6–
Motion for Reconsideration
Respondent's fourth motion is entitled, in part, as a
request for reconsideration.
However, despite its title, the motion itself makes no
discernable reference to Respondent seeking
reconsideration. Instead, it requests in its conclusion
that the Review Department reverse "the decision of
[this court] to refuse to vacate the order of
involuntary inactive enrollment." Accordingly, the
p. 17 (A3), Appendix – Petition for the Writ of Certiorari in In re
Jeffrey G. Thomas

Motion for Reconsideration is DENIED, no good
cause having been shown.
IT IS SO ORDERED.

Dated: October 1, 2020

Cynthia Valenzuela
Judge of the State Bar Court
__________________________________________
4 Even construing this motion as a motion to
reconsider, Respondent is requesting reconsideration
of this court's "refusal to vacate the order of
involuntary inactive enrollment." Since this court is
presently ruling on the Motion to Vacate,
Respondent's September 9, 2020 Motion for
Reconsideration is premature. Moreover, the Motion
for Reconsideration repeats the arguments previously
considered by the court that were raised in both the
instant Motion to
Vacate, and the July 23, 2020 objection.
Accordingly, there is an insufficient showing of
errors of law or fact based on the evidence already
before the court; and there are no new or different
facts, circumstances, or law. (Rules Proc. of State
Bar, rule 5.115.)

p. 18 (A3), Appendix – Petition for the Writ of Certiorari in In re
Jeffrey G. Thomas

-7–

CERTIFICATE OF SERVICE

[Rules Proc. of State Bar; Rule 5.27(B); Code Civ.
Proc., § 1013a(4)]

I am a Court Specialist of the State Bar Court of
California. I am over the age of eighteen and not a
party to the within proceeding. Pursuant to standard
court practice, in the City and County of Los
Angeles, on October 1, 2020, I deposited a true copy
of the following document(s):

ORDER REGARDING: (1) MOTION TO
VACATE; (2) MOTION TO COMPEL; (3)
REQUEST FOR JUDICIAL NOTICE; AND (4)
MOTION FOR RECONSIDERATION

in a sealed envelope for collection and mailing on
that date as follows:

by first-class mail, with postage thereon fully
prepaid, through the United States Postal Service at
p. 19 (A3), Appendix – Petition for the Writ of Certiorari in In re
Jeffrey G. Thomas

Los Angeles, California, addressed as follows:

JEFFREY GRAY THOMAS
ATTORNEY AT LAW
201 WILSHIRE BLVD FL 2
SANTA MONICA, CA 90401-1219

A courtesy copy by electronic transmission e-mailed
on October 1, 2020 to the following address:
JEFFREY GRAY THOMAS at
Usoldit@hotmail.com
ANDREW J. VASICEK at
Andrew.Vasicek@calbar.ca.gov
by interoffice mail through a facility regularly
maintained by the State Bar of California addressed
as follows:

ANDREW J. VASICEK, Office of Chief Trial
Counsel, Los Angeles

I hereby certify that the foregoing is true and correct.
Executed in Los Angeles, California, on October 1,
2020.
p. 20 (A3), Appendix – Petition for the Writ of Certiorari in In re
Jeffrey G. Thomas

Paul Barona
Court Specialist
State Bar Court

p. 21 (A3), Appendix – Petition for the Writ of Certiorari in In re
Jeffrey G. Thomas

Appendix A4 – Order of Ineligibility
PUBLIC MATTER
STATE BAR COURT OF CALIFORNIA
HEARING DEPARTMENT - LOS ANGELES

FILED r.B.
AUG 19 2020

STATE BAR COURT
CLERK'S Office
LOS ANGELES
In the Matter of
State Bar No. 83076.
JEFFREY GRAY THOMAS,
)
)
)
)
)

p. 22 (A4), Appendix – Petition for the Writ of Certiorari in In re
Jeffrey G. Thomas

)
---------------,)

Introduction

Case No. SBC-20-TE-304ll-CV
DECISION AND ORDER GRANTING
APPLICATION FOR INVOLUNTARY
INACTIVE ENROLLMENT

(Bus. & Prof. Code, Section 6007, subd. (c)(2).)

This matter is before the court on the verified
application of the Office of Chief Trial Counsel of
the State Bar of California (OCTC), seeking to enroll
respondent Jeffrey Gray Thomas (Respondent)
involuntarily as an inactive attorney of the State Bar
pursuant to Business and Professions Code section
6007, subdivision (C)(2),1 and Rules of Procedure of
the State Bar of California (Rules of Procedure), rule
5.225 et seq.
Section 6007, subdivision (c)(2), authorizes the State
Bar Court to order an attorney's involuntary inactive
enrollment upon a finding that: (1) the attorney has
p. 23 (A4), Appendix – Petition for the Writ of Certiorari in In re
Jeffrey G. Thomas

caused or is causing substantial harm to the attorney's
clients or to the public; and (2) there is a reasonable
probability that OCTC will prevail on the merits of
the underlying disciplinary matter and that the
attorney will be disbarred. (Section 6007, subd.
(c)(2)(A)-(B).) As set forth post, the court finds that
the prerequisites for involuntary inactive enrollment
under section 6007, subdivision (c)(2), have
___________________________________________
1 Except as otherwise noted, future references to
section(s) are to this source.
been met by clear and convincing evidence.
Accordingly, Respondent is ordered involuntarily
enrolled as an inactive attorney of the State Bar
pursuant to section 6007, subdivision (c)(2).
Procedural History
On June 26, 2020, OCTC filed an application seeking
an order to enroll Respondent as an inactive attorney
of the State Bar of California, pursuant to Business
and Professions Code section 6007, subdivision
(c)(2), and rule 5.225 et seq. of the Rules of
Procedure (Application).

That same day, a copy of the Application was
properly served on Respondent by certified mail,
return receipt requested, at his official State Bar
record address. (Rules Proc. of State Bar, rule
5.226(B).) OCTC expressly waived hearing on the
p. 24 (A4), Appendix – Petition for the Writ of Certiorari in In re
Jeffrey G. Thomas

Application and requested that the matter be
submitted on the pleadings unless Respondent filed a
response contesting the Application. (See Rules Proc.
of State Bar, rule 5.226(A).)
On July 1, 2020, this court filed a notice of
assignment and notice of hearing (Notice of Hearing)
informing the parties that a hearing in this matter was
set for July 30, 2020. A copy of this notice was
properly served on Respondent by mail at his official
State Bar attorney address.2 A copy of this notice
was also emailed to Respondent that same day.
Respondent was given notice of this proceeding
pursuant to rule 5.226(E) of the Rules of Procedure;
however, he did not file a response to the
Application, and the time for doing so has expired.
(Rules Proc. of State Bar, rule 5.227.) Accordingly,
this matter was submitted for decision on July 20,
2020. That same day, the court issued an order noting
that this matter had been taken under submission and
vacating the hearing date.3

On July 23, 2020, Respondent filed a notice of
objection and a motion in case Nos. 15-0-14870 and
"20-TE-07458." The notice of objection was entitled
__________________________________________
2 This mailing was not subsequently returned to the
court by the U.S. Postal Service as undeliverable or
for any other reason.
p. 25 (A4), Appendix – Petition for the Writ of Certiorari in In re
Jeffrey G. Thomas

3 A copy of the submission order was served on
Respondent in the same fashion as the Notice of
Hearing.
-2–
Notice of Respondent's Objections to Schedule for
Hearing on July 30, 2020, and Declaration in Support
(notice of objection). The motion was entitled
Respondent's Motion to State Bar Court South to
Reconsider Unabatement and Declaration in Support
(motion to reconsider unabatement). These two
filings were procedurally flawed on multiple
grounds.

First, "20-TE-07458" is not a State Bar Court case
number. Instead, it is OCTC's case number for which
the corresponding State Bar Court case number is
SBC-20-TE-30411. Second, case Nos. 15-0-14870
and SBC-20-TE-30411 are not consolidated.
Consequently, any pleadings should be filed
separately in each case. And third, the present case
was filed on June 26, 2020, and has never been
abated. Accordingly, Respondent's Motion to
Reconsider Unabatement is not applicable to the
present matter.
Despite these issues, the court permitted
Respondent's notice of objection and motion to
reconsider unabatement to be filed in the present
proceeding. However, as noted above, Respondent's
motion to reconsider unabatement is inapplicable to
p. 26 (A4), Appendix – Petition for the Writ of Certiorari in In re
Jeffrey G. Thomas

the present case, as this case was never abated.
Consequently, that motion is denied, no good cause
having been shown.4
Respondent's notice of objection consists of a short
assertion that Respondent "objects to the 'virtual'
hearing that was scheduled without notice to
[Respondent] and/or opportunity to submit his
criticisms, that is apparently scheduled for July 30,
2020." It is followed by a rambling declarations in
which Respondent makes the following assertions:

(1) OCTC should be investigating the opposing
parties in the underlying disciplinary matters.
(2) State Bar employees and prosecutors
"undoubtedly are negligently hired and negligently
trained at work by ‘The State Bar.’”
4 This court has not yet ruled on this motion with
regard to case No. 15-0-14870, but will do so in a
separate order.
5 Respondent attached this exact same declaration to
his Motion to Reconsider Unabatement.
6 Respondent generally refers to OCTC as "the State
Bar south."
-3–
(3) The court has not provided Respondent with an
explanation for the "so-called hearing."
p. 27 (A4), Appendix – Petition for the Writ of Certiorari in In re
Jeffrey G. Thomas

(4) OCTC included a false proof of service on the
present application constituting elder abuse against
Respondent.7
(5) Respondent is requesting a restraining order
against the elder abuse being perpetuated by OCTC's
"youthful" prosecutors.
(6) OCTC is not complying with Respondent's
discovery demands (presumably in case No. 15-014870);
(7) The numerous "so-called" sanctions awarded
against Respondent (in reference to the underlying
misconduct in case No. 15-0-14870) are void or
invalid;
(8) OCTC is proclaiming to be a "judicial branch
agency" on the facade at the State Bar of California's
Los Angeles office building and therefore violates
separation of powers.
(9) The trial court and Court of Appeal "have
deprived Respondent of his procedural due process
rights, and if this State Bar Court proceeds with the
hearing as scheduled, Respondent must request
punitive sanctions to be paid from prosecutor's
pockets to him."
(10) Respondent's new thermometer indicated that he
has a fever, but he doesn't know if new thermometer
works correctly.

p. 28 (A4), Appendix – Petition for the Writ of Certiorari in In re
Jeffrey G. Thomas

(11) Respondent will be "obtaining a test result [sic]
and extreme self-quarantining for thirty days
minimum."
(12) Los Angeles County politicians are corrupt and
are lying to the population about the risk of infection.
Respondent also asserts in this declaration that both
OCTC's Application and the court's Notice of
Hearing were received by him weeks after the
mailing dates reflected in their respective proofs of
service indicate. Specifically, Respondent claims that
he received the Notice of Hearing from this court on
or about July 17, 2020. This claim is not credible,
because Respondent failed to provide any proof- such
as a copy of the postage mark date on the envelope that he actually received the Notice of Hearing two
___________________________________________
7 Respondent's claims that the proofs of service
"must be false" because he "received and read" the
Application on July 17, 2020, three weeks after the
date on OCTC's proof of service. As noted below,
the court does not find credible Respondent's
representation that he received the Application three
weeks after the proof of service.
- 4and a half weeks after it was sent. Moreover, this
court's Notice of Hearing was also sent to
Respondent by electronic mail on July 1, 2020.
The court does not find any of Respondent's other
p. 29 (A4), Appendix – Petition for the Writ of Certiorari in In re
Jeffrey G. Thomas

assertions in the declaration attached to the notice of
objection to be credible or compelling. Respondent
has made no effort to file a response to the
Application, and his motivation here appears to be to
stall, delay, or otherwise derail this proceeding.
Respondent did not seek leave to file a belated
response to the Application, but instead simply
proclaims, based on his unsubstantiated argument
that the Application was improperly served on him
(as well as his litany of other objections), that
thecourt must strike the Application and OCTC must
start the process anew.8
Jurisdiction
Respondent was admitted to the practice of law in
California on November 29, 1978, and has been
licensed to practice law at all times since then.

Findings of Fact and Conclusions of Law

As noted above, section 6007, subdivision (c)(2),
authorizes the State Bar Court to order an attorney's
involuntary inactive enrollment upon a finding that:
(1) the attorney has caused or is causing substantial
harm to the attorney's clients or to the public; and (2)
there is a reasonable probability that OCTC will
prevail on the merits of the underlying disciplinary
matter and that the attorney will be disbarred.
(Section 6007, subd. (c)(2)(A)-(B).)
p. 30 (A4), Appendix – Petition for the Writ of Certiorari in In re
Jeffrey G. Thomas

The Application in the present matter was properly
filed pursuant to rule 5.226 of the Rules of
Procedure. (See also Rules Proc. of State Bar, rule
5.231(B).) It is based upon Respondent's alleged
misconduct that is the subject of the disciplinary
charges pending against Respondent in State Bar
Court case numbers 15-0-14870
___________________________________________
8 The notice of objection is not a motion.
Accordingly, OCTC need not file and serve a written
response, and no action is required by this court.
-5–
and SBC-20-0-00029, as well as evidence indicating
that Respondent continues to engage in additional
misconduct by recently filing yet another related
frivolous action despite having already been
sanctioned over $188,000 for frivolous motions and
appeals. OCTC asserts that Respondent, over the
course of eight years, "has engaged in a pattern of
misconduct in which he flouts the authority of the
courts and frustrates the judicial process." In support
of the Application, OCTC included, among other
things, declarations of Norman Solomon and Rosario
Perry, opposing counsel in the underlying litigation,
and numerous court documents and records,
including opinions issued by the Court of Appeal in
two separate proceedings.9
p. 31 (A4), Appendix – Petition for the Writ of Certiorari in In re
Jeffrey G. Thomas

Facts
The Hope Street Interpleader
On July 28, 2011, 1130 Hope Street Investment
Associates, LLC (Hope Street) filed an interpleader
complaint in the Los Angeles County Superior Court
against Hope Park Lofts, LLC (Hope Park); Norman
Solomon (Solomon)10; True Harmony, Inc. (True
Harmony); Ray Haiem (Haiem); and Rosario Perry
(Perry), among others. The purpose of the Hope
Street interpleader was to provide a forum to the
claimants to resolve their competing claims to the
$1.6 million proceeds resulting from the sale of
property located at 1130 South Hope Street.
Representing himself, Haiem filed an answer and a
cross-complaint against Hope Street. Haiem,
however, failed to serve the cross-complaint and the
superior court warned him that the cross-complaint
would be dismissed if not served by a certain date.
Respondent substituted into the case on Haiem's
behalf in October 2012. Thereafter, Respondent
failed to appear at a November 9, 2012 order to show
cause hearing re dismissal of the cross-complaint,
and the superior court ordered the cross-complaint
stricken.
_________________________________________
9 The Application includes a request for judicial
notice of 14 attached court records. Good cause
having been shown, that request is granted.
p. 32 (A4), Appendix – Petition for the Writ of Certiorari in In re
Jeffrey G. Thomas

__________________________________________
10 Solomon was the sole member of the Home Park
LLC.
-6–
Notwithstanding the fact that the superior court had
stricken the cross-complaint, Haiem filed multiple
motions to amend the no-longer-existent crosscomplaint. These requests were denied. In February
2013, Hope Street dismissed Haiem from the
interpleader action.

On May 14, 2013, Respondent filed a motion to
vacate the November 9, 2012 striking of Haiem's
cross-complaint. On December 4, 2013, the superior
court denied the motion to vacate since it was not
timely, as more than six months had passed since the
order striking the cross-complaint was filed and
served. On January 31, 2014, Respondent filed an
appeal on Haiem's behalf

The Court of Appeal Sanction Order Regarding the
Hope Street Interpleader

On April 27, 2015, the Court of Appeal of the
Second District of the State of California issued an
order denying Respondent's appeal of the Hope Street
p. 33 (A4), Appendix – Petition for the Writ of Certiorari in In re
Jeffrey G. Thomas

interpleader. In its order, the Court of Appeal laid
out Respondent's ''unprofessional and at times
outrageous conduct toward counsel for Hope Park."
(Exh. 7, p. 15.) The Court of Appeal concluded that
Respondent's appeal was frivolous because it was
"objectively devoid of merit and ... subjectively
prosecuted for an improper motive-to harass [Hope
Park] and increase its litigation costs." (Exh. 7, p.
19.)
Accordingly, the Court of Appeal issued an order
imposing judicial sanctions upon Respondent
individually (not his client) in the amount of $58,650,
payable within 30 days from the date the remittitur
issued. Of this amount, the Court of Appeal specified
that $48,650 was to reimburse Hope Park for attorney
fees paid in defending this frivolous appeal, and the
remaining $10,000 was "to discourage the type of
inappropriate conduct displayed by Haiem and
[Respondent] in this appeal." (Exh. 7, p. 21.)
This sanction, however, did not have the intended
impact. Respondent filed an application of rehearing
with the Court of Appeal, which was denied. He then
filed petitions to the California Supreme Court and
United States Supreme Court, which
-7were also denied. In addition, Respondent, as
addressed below, went on to file a federal lawsuit
against two of the Justices of the Court of Appeal
that issued the judicial sanctions order, as well as
p. 34 (A4), Appendix – Petition for the Writ of Certiorari in In re
Jeffrey G. Thomas

Solomon, Perry, and others. Moreover, Respondent
has not paid any portion of the $58,650 in judicial
sanctions. (See Exh. 2, p. 5.)11
The Superior Court Sanction Order in the Hope
Street Interpleader
Prior to Respondent's appeal in the Hope Street
interpleader, Hope Park filed a request in superior
court for sanctions against Respondent pursuant to
Code of Civil Procedure section 128.7. This motion
was based on the claim that counsel for Hope Park
advised Respondent in July 2013 that Respondent's
May 14, 2013 motion to vacate was without any legal
basis because it was untimely. Nonetheless,
Respondent refused to withdraw the untimely motion
to vacate. The Hope Park sanctions motion was held
over until after the Court of Appeal issued its
remittitur back to the superior court on August
18,2015. Similar to the aforementioned Court of
Appeal order, the superior court found, in an order
filed on August 24, 2016, that there was no legal
basis for Respondent to bring the motion to vacate.
Moreover, the superior court echoed the Court of
Appeal's sentiments that Respondent filed and
maintained the motion to vacate for the purpose of
harassing Hope Park and needlessly driving up the
cost of litigation.

Accordingly, the superior court ordered that
Respondent individually (not his client) pay Hope
p. 35 (A4), Appendix – Petition for the Writ of Certiorari in In re
Jeffrey G. Thomas

Park $18,060 in sanctions and $22,810 in attorney's
fees - for a total of $40,870. Respondent, however,
did not subsequently pay any portion of either
amount.
The Los Angeles Superior Court Sanction Order in
the True Harmony Matter
In May 2014, Respondent filed a lawsuit in the Los
Angeles Superior Court entitled True Harmony and
Haiem v. Perry, Hope Park, and Solomon (the True
___________________________________________
11 In the present proceeding, OCTC also alleged that
Respondent failed to timely report multiple judicial
sanctions to the State Bar of California. These
allegations, however, were not addressed in OCTC's
declarations or otherwise established by clear and
convincing evidence.
-8–
Harmony matter). The True Harmony matter was
predominately based on the same issues adjudicated
in previous litigation. Consequently, the defendants
filed demurrers, which were sustained in their
entirety. Specifically, the superior court found that
Respondent's first cause of action failed to state a
claim and that his remaining causes of action were
barred by res judicata. Accordingly, the superior
court signed and entered a judgment dismissing the
complaint in the True Harmony matter on April 7,
2017.
p. 36 (A4), Appendix – Petition for the Writ of Certiorari in In re
Jeffrey G. Thomas

Rather than file a timely appeal of the dismissal of
the True Harmony matter, Respondent sought
reconsideration on April 17, 2017. This request was
subsequently denied, and the defendants sought
monetary sanctions against Respondent. The superior
court subsequently concluded that Respondent
violated section 128.7(b)(2) by proceeding with a
motion for reconsideration which had no basis in the
law at the time it was filed. Noting that Respondent
had refused to withdraw the motion for
reconsideration even though opposing counsel
admonished him that the motion had no legal basis,
the superior court ordered Respondent to pay
sanctions in the amount of $23,350. These sanctions
have not been paid.
The Court of Appeal Sanction in the True Harmony
Matter
On December 18, 2017, Respondent filed two notices
of appeal in the True Harmony matter - one on behalf
of True Harmony and another on behalf of himself.
12 On December 13, 2018, the Court of Appeal of
the Second District of the State of California issued
an order in the True Harmony matter affirming the
sanctions order. (Exh.10.) In its order, the Court of
Appeal found that Respondent's appeal made
frivolous arguments and repeatedly violated the
Court of Appeal's order specifying that Respondent's
appeal was limited to the superior court's sanctions
order. The Court wrote: "It is evident from
[Respondent's] pursuit of improper appeals and plain
p. 37 (A4), Appendix – Petition for the Writ of Certiorari in In re
Jeffrey G. Thomas

disobedience of our court orders that his briefing and
___________________________________________
12 The Court of Appeal subsequently dismissed, as
untimely, Respondent's appeal on Behalf of True
Harmony.
- 9motions are frivolous and intended to harass
Solomon." (Exh. 10, p. 17.) Accordingly, the Court
of Appeal ordered sanctions against Respondent in
the amount of$65,480.64 ($56,980.64 to Solomon for
attorney's fees and $8,500
to Court of Appeal to "reimburse costs of processing
the various frivolous aspects of [Respondent's]
appellate filings") to be paid within 90 days of the
date of remittitur. (Exh. 10, p. 18.) Respondent has
not paid these sanctions.
The Thomas v. Zelon Matter
On August 31, 2016, Respondent filed another
lawsuit, this time in federal court. That lawsuit was
entitled Thomas v. Zelon et al. In this matter,
Respondent sued two of the Court of Appeal Justices
that heard Respondent's Hope Street interpleader
appeal, as well as Solomon, Perry, Hope Park, and
others. Thomas v. Zelon involved the sanctions
ordered by the Court of Appeal on April 27, 2015, as
well as the same issues previously litigated by the
parties with regard to the Hope Street interpleader.
p. 38 (A4), Appendix – Petition for the Writ of Certiorari in In re
Jeffrey G. Thomas

Thomas v. Zelon was subsequently dismissed by the
United States District Court for the Central District
of California. Thereafter, Respondent appealed to the
United States Court of Appeals for the Ninth Circuit.
On March 22, 2018, the Ninth Circuit issued a
Memorandum finding that the district court properly
dismissed Respondent's action "because
[Respondent's] claims stemming from the prior state
court action constitute a 'de facto appeal' of prior
state court judgments, or are "inextricably
intertwined" with those judgments. [Citation.]" (Exh.
Thereafter, Respondent filed a petition for writ of
certiorari with the United States Supreme Court in
Thomas v. Zelon. That petition was denied.
Respondent subsequently filed a petition for
rehearing in the United States Supreme Court, which
was also denied.

___________________________________________
____________________
13 The court is unable to cite to a page number
because Exhibit 13, which is approximately 1600
pages, does not contain page numbers.
-10 –
Respondent's 2020 Lawsuit Against Hope Street,
Solomon, and Others
Despite the numerous rulings and sanction orders,
Respondent continues to litigate the Hope Street
p. 39 (A4), Appendix – Petition for the Writ of Certiorari in In re
Jeffrey G. Thomas

matter to this day. In January 2020, he filed another
federal lawsuit, this time on behalf of True Harmony,
Haiem, and himself against Solomon, Hope Street,
Hope Park, Perry, the Department of Justice of the
State of California, and others. This lawsuit is
entitled True Harmony, et al. v. The Department of
Justice of the State of California, et al. (Exhs. 11, 12,
and
13.) I n this lawsuit, Respondent seeks to again relitigate claims regarding the property located at 1130
South Hope Street. (See Exhs. 2, 3, 11, 12, and 13.)

Respondent's August 26, 2016 Letter to Opposing
Counsel

On or about August 26, 2016, Respondent sent a
letter to Perry's attorneys in the True Harmony matter
after Perry filed an anti-SLAPP motion and joined in
a demurrer. In that letter, Respondent wrote, in part,
the following:
Please be advised that YOU are guilty of mail fraud
in violation of 18 U.S.C. §1341 because YOU have
not corrected the misrepresentation created by
YOUR prior written notices for the dates of hearings
on said motions by filing and serving written notices
of the hearing dates that YOU have selected that are
different from the dates that YOU have chosen.
Please be advised that YOU will be indicted, found
p. 40 (A4), Appendix – Petition for the Writ of Certiorari in In re
Jeffrey G. Thomas

guilty and sentenced to five years in the federal
penitentiary for the mail fraud if YOU do not correct
YOUR violations of the Code of Civil Procedure.
(Exh. 6, p. 2.)

Despite Respondent's accusations and threats of
criminal prosecution, both the anti-SLAPP motion
and the demurrer were ultimately successful.
Legal Conclusions
Pursuant to section 6007, subdivision (c)(2)(B), the
court finds that there is a reasonable probability that
the State Bar will prevail as to the following charges:
- 11 –
1. Section 6103 [Failure to Obey Court Orders] with
regard to Respondent's failure to comply with the
following orders to pay sanctions: (1) the Court of
Appeal's April 27, 2015 sanction order in the Hope
Street interpleader appeal; (2) the Los Angeles
Superior Court's August 24, 2016 sanction order in
the Hope Street interpleader matter; (3) the Los
Angeles Superior Court's November 30, 2017
sanction order in the True Harmony matter; and (4)
the Court of Appeal's December 13, 2018 sanction
order in the True Harmony matter.

2. Former rule 3-700(D)(2) of the Rules of
Professional Conduct14 [Threatening Charges to
p. 41 (A4), Appendix – Petition for the Writ of Certiorari in In re
Jeffrey G. Thomas

Gain Advantage in Civil Suit] for threatening
criminal charges against Perry's attorneys to gain a
civil advantage in the True Harmony matter.
3. Section 6068, subd. (c) [Maintaining Unjust
Actions, Proceedings, or Defenses] as follows: (1)
filing and failing to withdraw an untimely motion to
vacate in the Hope Street interpleader; (2) filing and
pursuing a frivolous appeal with the Court of Appeal
in the Hope Street interpleader matter; (3) filing and
failing to withdraw an improper motion for
reconsideration in the True Harmony matter; and (4)
filing and pursuing a frivolous and improper appeal
with the Court of Appeal in the True Harmony
matter.
Discussion
As noted ante, under section 6007, subdivision (c)(2),
the State Bar Court is authorized to order the
involuntary inactive enrollment of an attorney if it
finds:

A. The attorney has caused or is causing substantial
harm to the attorney's clients
or the public.

B. There is a reasonable probability that OCTC will
prevail on the merits of the
p. 42 (A4), Appendix – Petition for the Writ of Certiorari in In re
Jeffrey G. Thomas

underlying disciplinary matter, and that the attorney
will be disbarred.
(Section 6007, subd. (c)(2).)

14 The Rules of Professional Conduct were revised
on November 1, 2018.

- 12 –

OCTC bears the burden of establishing both of these
factors with clear and convincing evidence. (Conway
v. State Bar (1989) 47 Cal.3d 1107, 1126; In the
Matter of Mesce (Review Dept. 1994) 2 Cal. State
Bar Ct. Rptr. 658, 661.) In Conway v. State Bar,
supra, 47 Cal.3d 1107, the five-justice majority
rejected the dissent's position that section 6007,
subdivision (c), was unconstitutional as an invalid
delegation of judicial power to the State Bar by the
Legislature and
held that ''the statutory authorization for the [State
Bar Court] to order involuntary inactive enrollment
in exigent circumstances, subject to our immediate
and plenary review, cannot reasonably be said to
'defeat or materially impair' the inherent prerogatives
of this court. [Citation.]" (ld. at p. 1120, fn. 7, italics
added.)
p. 43 (A4), Appendix – Petition for the Writ of Certiorari in In re
Jeffrey G. Thomas

Further, the Review Department has stated that a
proceeding for involuntary inactive enrollment
pursuant to section 6007, subdivision (c)(2) "may be
very roughly analogized to a preliminary injunction
proceeding in a civil matter." (In the Matter of
Phillips (Review Dept. 1999) 4 Cal. State Bar Ct.
Rptr. 47, 49.)15

Substantial Harm to the Clients or the Public (Bus. &
Prof. Code, § 6007, subd. (c)(2)(A).)

Respondent's misconduct has caused substantial
harm to the public.

Solomon, who is seventy-three years old, has
endured what he describes as Respondent's
"unceasing legal extortion" for almost eight years.
(Exh. 2, p. 1.) Solomon described a pattern in
multiple lawsuits where Respondent loses at the trial
level and then appeals that decision all the way up to
the United States Supreme Court. Then after
Respondent's appeal ultimately fails, he starts the
procedure over again by filing a new complaint based
on the same underlying matter. Solomon asserts that
despite Respondent's repeated lack of success
(including large sanctions and two State Bar referrals
from the Court of Appeal), he remains undeterred
p. 44 (A4), Appendix – Petition for the Writ of Certiorari in In re
Jeffrey G. Thomas

from filing additional lawsuits related to the Hope
Street matter.
___________________________________________
15 While Conway and Phillips are still good law, the
court acknowledges that section 6007 has been
substantially amended since those cases were issued.
- 13 –
Solomon has suffered substantial emotional and
financial stress as a result of Respondent's
misconduct over the past several years. None of the
court victories Solomon has achieved over
Respondent have provided him any respite because
Respondent simply turns around and files the same
case again in a different forum. Solomon
characterizes this as a cycle of "seemingly endless
harassment." (Exh. 2, p. 3.)

Although multiple courts have awarded Solomon
attorney's fees to at least partially reimburse him for
costs expended fighting Respondent's frivolous
actions, Respondent has not paid any of those
sanctions. Respondent, to this point, has cost
Solomon hundreds of thousands of dollars in legal
fees and costs. And the sanction orders crafted to
help make Solomon whole have had no effect, as
Respondent has demonstrated no intention of paying
them.16
Perry, who is also seventy-three years old, describes
p. 45 (A4), Appendix – Petition for the Writ of Certiorari in In re
Jeffrey G. Thomas

himself as "very depressed by the continued
harassment [he is] receiving from [Respondent]."
(Exh 3, p. 1.) Perry estimates that he has thus far
spent approximately $50,000 defending himself
against Respondent's repeated lawsuits, and this does
not include the hundreds of hours Perry has
personally spent defending these matters. Perry notes
that sanctions and the threat of State Bar discipline
have not deterred Respondent from continuously
refiling the same lawsuit in another venue. Perry
asserts that
Respondent "simply does not care."
Respondent's misconduct has further caused
substantial harm to the public through the harm to the
administration of justice. The numerous sanctions are
clear evidence that there was harm to the
administration of justice. The Court of Appeal in the
True Harmony matter ostensibly realized the
resulting harm to the public when it ordered the
$8,500 sanction to "reimburse costs of processing
various frivolous aspects of [Respondent's] appellate
filings." (In the Matter of Field, supra, 5 Cal. State
Bar Ct. Rptr. 171, 184 [attorney's misconduct harmed
___________________________________________
16 As noted ante, Respondent refers to these valid
judicial orders as "so-called sanctions" and continues
to dispute their validity in his notice of objection.
- 14p. 46 (A4), Appendix – Petition for the Writ of Certiorari in In re
Jeffrey G. Thomas

administration of justice by causing unnecessary
litigation, compromising criminal cases, and
negatively impacting public trust in judicial system].
Accordingly, the court finds that the State Bar has
established, by clear and convincing evidence, that
Respondent has caused and is continuing to cause
substantial harm to the public.

Probability OCTC Will Prevail (Bus. & Prof. Code, §
6007, subd. (c)(2)(B).)

Based on the Application and the attached
declarations and court documents, this court
concludes that there is a reasonable probability that
OCTC will prevail on the merits of the underlying
disciplinary matters. Moreover, based on the severity
of the charges, the harm to the victims, and
Respondent's evident lack of remorse and insight,
there is a reasonable probability that Respondent will
be disbarred. (See In the Matter of Varakin (Review
Dept. 1994) 3 Cal. State Bar Ct. Rptr. 179
[disbarment for attorney with 30 years of disciplinefree practice who was sanctioned for filing frivolous
motions and appeals over 12-year period, and who
lacked insight and refused to change]; and standards
2.9(a) and 2.12(a) of the Rules of Procedure of the
State Bar, title IV, Standards for Attorney Sanctions
for Professional Misconduct.)
p. 47 (A4), Appendix – Petition for the Writ of Certiorari in In re
Jeffrey G. Thomas

Conclusion

After careful consideration, the application for
Respondent's involuntary inactive enrollment should
be granted, as the record has established: (1) that
Respondent has and is continuing to cause harm to
the public; and (2) there is a reasonable probability
that OCTC will prevail at trial and that Respondent
will be disbarred.
Order
Accordingly, IT IS ORDERED that respondent
Jeffrey Gray Thomas be enrolled as an inactive
attorney of the State Bar of California, pursuant to
Business and Professions Code section 6007,
subdivision (c)(2), effective three days after service
of this order by mail. (Rules Proc. of State Bar, rule
5.231(D).) State Bar Court staff is directed to give
written notice of this order to Respondent and to the
- 15 –
order to Respondent and to the Clerk of the Supreme
Court of California. (Bus. & Prof Code, § 6081.)

IT IS FURTHER ORDERED that:

p. 48 (A4), Appendix – Petition for the Writ of Certiorari in In re
Jeffrey G. Thomas

1. Within 30 days after the effective date of the
involuntary inactive enrollment,
Respondent must:

(a) Notify all clients being represented in pending
matters and any co-counsel of
his involuntary inactive enrollment and his
consequent immediate
disqualification to act as an attorney and, in the
absence of co-counsel, notify
the clients to seek legal advice elsewhere, calling
attention to the urgency in
seeking the substitution of another attorney or
attorneys in his place;

(b) Deliver to all clients being represented in pending
matters any papers or
other property to which the clients are entitled, or
notify the clients and any
co-counsel of a suitable time and place where the
papers and other property
may be obtained, calling attention to the urgency of
obtaining the papers or
other property;
p. 49 (A4), Appendix – Petition for the Writ of Certiorari in In re
Jeffrey G. Thomas

(c) Provide to each client an accounting of all funds
received and fees or costs
paid, and refund any advance payments that have not
been either earned as
fees or expended for appropriate costs; and

(d) Notify opposing counsel in pending matters or, in
the absence of counsel, the
adverse parties of his involuntary inactive
enrollment, and file a copy of the
notice with the court, agency, or tribunal before
which the matter is pending for inclusion in the
respective file or files;
2. All notices required to be given by paragraph 1
must be given by registered or certified mail, return
receipt requested, and must contain Respondent's
current State Bar records address where
communications may thereafter be directed to him;
3. Within 40 days of the effective date of the
involuntary inactive enrollment,
Respondent must file with the Clerk of the State Bar
Court: (1) an affidavit (containing Respondent's
current State Bar records address where
communications may thereafter be directed to him)
stating that he has fully complied with the provisions
p. 50 (A4), Appendix – Petition for the Writ of Certiorari in In re
Jeffrey G. Thomas

of paragraphs 1 and 2 of this order; and (2) copies of
all documents sent to clients pursuant to paragraph
1(c) of this order; and
- 16 4. Respondent must keep and maintain records of the
various steps taken by him in compliance with this
order so that, upon any petition for termination of
inactive enrollment, proof of compliance with this
order will be available for receipt into evidence.
Respondent is cautioned that failure to comply with
the provisions of paragraphs 1 - 4 of this order may
constitute a ground for denying his petition for
termination of inactive enrollment or reinstatement,
or for imposing sanctions.

Cynthia Valenzuela

Dated: August 19, 2020 CYNTHIA VALENZUELA
Judge of the State Bar Court

- 17 CERTIFICATE OF SERVICE

[Rules Proc. of State Bar; Rule 5.27(B); Code Civ.
p. 51 (A4), Appendix – Petition for the Writ of Certiorari in In re
Jeffrey G. Thomas

Proc., § 1013a(4)]

I am a Court Specialist of the State Bar Court of
California. I am over the age of eighteen and not a
party to the within proceeding. Pursuant to standard
court practice, in the City and County of Los
Angeles, on August 19, 2020, I deposited a true copy
of the following document(s):

DECISION AND ORDER GRANTING
APPLICATION FOR INVOLUNTARY INACTIVE
ENROLLMENT (Bus. & Prof. Code, Section 6007,
subd. (c)(2).)

in a sealed envelope for collection and mailing on
that date as follows:

by first-class mail, with postage thereon fully
prepaid, through the United States Postal Service at
Los Angeles, California, addressed as follows:

JEFFREY GRAY THOMAS
ATTORNEY AT LAW
201 WILSHIRE BLVD FL 2
p. 52 (A4), Appendix – Petition for the Writ of Certiorari in In re
Jeffrey G. Thomas

SANTA MONICA, CA 90401-1219

A courtesy copy by el
ectronic transmission e-mailed on August 19,2020 to
the following address:
JEFFREY GRAY THOMAS at
Usoldit@hotmail.com
ANDREW J. VASICEK at
Andrew.Vasicek@calbar.ca.gov
by interoffice mail through a facility regularly
maintained by the State Bar of California addressed
as follows:

ANDREW J. VASICEK, Office of Chief Trial
Counsel, Los Angeles

I hereby certify that the foregoing is true and correct.
Executed in Los Angeles, California, on August 19,
2020.

Paul Barona
Court Specialist
State Bar Court
p. 53 (A4), Appendix – Petition for the Writ of Certiorari in In re
Jeffrey G. Thomas

p. 54 (A4), Appendix – Petition for the Writ of Certiorari in In re
Jeffrey G. Thomas

